<html>
<title> - [H.A.S.C. No. 112-38] NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2012  AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TWELFTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 112-38]

 
                                HEARING
                                   ON
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2012

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

     BUDGET REQUESTS FOR U.S. PACIFIC COMMAND AND U.S. FORCES KOREA

                               __________

                              HEARING HELD

                             APRIL 6, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
65-809                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b9dec9d6f9dacccacdd1dcd5c997dad6d497">[email&#160;protected]</a>  

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            GABRIELLE GIFFORDS, Arizona
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROB WITTMAN, Virginia                CHELLIE PINGREE, Maine
DUNCAN HUNTER, California            LARRY KISSELL, North Carolina
JOHN C. FLEMING, M.D., Louisiana     MARTIN HEINRICH, New Mexico
MIKE COFFMAN, Colorado               BILL OWENS, New York
TOM ROONEY, Florida                  JOHN R. GARAMENDI, California
TODD RUSSELL PLATTS, Pennsylvania    MARK S. CRITZ, Pennsylvania
SCOTT RIGELL, Virginia               TIM RYAN, Ohio
CHRIS GIBSON, New York               C.A. DUTCH RUPPERSBERGER, Maryland
VICKY HARTZLER, Missouri             HANK JOHNSON, Georgia
JOE HECK, Nevada                     KATHY CASTOR, Florida
BOBBY SCHILLING, Illinois            BETTY SUTTON, Ohio
JON RUNYAN, New Jersey               COLLEEN HANABUSA, Hawaii
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
               Jenness Simler, Professional Staff Member
               William Johnson, Professional Staff Member
                    Lauren Hauhn, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, April 6, 2011, Fiscal Year 2012 National Defense 
  Authorization Budget Requests for U.S. Pacific Command and U.S. 
  Forces Korea...................................................     1

Appendix:

Wednesday, April 6, 2011.........................................    39
                              ----------                              

                        WEDNESDAY, APRIL 6, 2011
  FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUESTS FOR 
               U.S. PACIFIC COMMAND AND U.S. FORCES KOREA
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Sharp, GEN Walter ``Skip,'' USA, Commander, U.S. Forces Korea....     5
Willard, ADM Robert F., USN, Commander, U.S. Pacific Command.....     3

                                APPENDIX

Prepared Statements:

    McKeon, Hon. Howard P. ``Buck''..............................    43
    Sharp, GEN Walter ``Skip''...................................    77
    Smith, Hon. Adam.............................................    45
    Willard, ADM Robert F........................................    47

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [The information is classified and retained in the committee 
      files.]

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................   116
    Mr. Forbes...................................................   113
    Mrs. Hanabusa................................................   117
    Mr. Palazzo..................................................   120
    Mr. Scott....................................................   119
    Mr. Turner...................................................   117


  FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUESTS FOR 
               U.S. PACIFIC COMMAND AND U.S. FORCES KOREA

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, April 6, 2011.
    The committee met, pursuant to call, at 10:01 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Good morning.
    The House Armed Services Committee meets today to receive 
testimony on the fiscal year 2012 President's Budget Request 
for the U.S. Pacific Command [USPACOM] and U.S. Forces Korea 
[USFK].
    I welcome our witnesses, Commander of U.S. Pacific Command, 
Admiral Bob Willard, and Commander of U.S. Forces Korea, 
General Skip Sharp. Thank you both for being with us. It is a 
pleasure to see you again.
    I am sure you are much happier here than in the Pacific.
    Just kidding.
    First, on behalf of this entire committee, please allow me 
to express my heartfelt sorrow to the people of Japan for the 
terrible disaster which struck unexpectedly on March 11th. 
Japan is not only an esteemed trading partner, but the military 
alliance of our two nations forms the cornerstone of our mutual 
security in the Pacific.
    Admiral Willard, please convey to your counterparts in the 
government of Japan that the U.S. Congress stands by them and 
offers our support to continue to help its citizens rebuild and 
recover.
    In preparing for this hearing, I noted with amazement that 
the physical damage from the earthquake and tsunami is 
currently estimated at $250 billion to $309 billion. That is 
more than 350 percent higher than Hurricane Katrina.
    Admiral Willard, please let us know what type of assistance 
the U.S. military has been able to offer Japan, what additional 
help they may need, and what the status of U.S. personnel and 
their families is right now.
    Apart from Japan, however, our witnesses have 
responsibility for one of the most geographically and 
ethnically dispersed regions of the globe, which will present 
some of the greatest opportunities and challenges to our 
national security in the coming decades.
    In its 2011 edition of The Military Balance, the 
International Institute for Strategic Studies, or IISS, drew 
ominous conclusions about global developments in defense policy 
and our Armed Forces.
    The IISS head, Dr. John Chipman, warned, ``The United 
States, in the next few years it is going to have to make some 
very significant decisions on what it does.''
    The IISS highlighted the contrast between defense cuts in 
the West and booming military spending and arms acquisitions in 
Asia and the Middle East, concluding, ``there is persuasive 
evidence that a global redistribution of military power is 
under way.''
    In particular, the rapidly expanding military power of 
China continues to overshadow other Asian states' military 
efforts and creates unease among American allies in the region.
    The report further observes that ``the Korean Peninsula is 
now as dangerous a place as it has been at any time since the 
end of the Korean War in 1953,'' given the ``imminent and 
possibly unclear leadership succession'' in North Korea and 
that country's aggression towards the South.
    In this context, it has never been more important to ensure 
that our forces in the Pacific have the personnel, training, 
equipment, and authorities they need to instill confidence in 
our allies, deter aggression, and remain ready to respond 
decisively to any contingency that may arise.
    Admiral Willard, General Sharp, thank you for your many 
years of service. Thank you to those who serve with you.
    Please express to them our sincere appreciation for all 
that they are doing.
    We look forward to your testimony.
    Ranking Member Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 43.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    Welcome Admiral Willard, General Sharp. I appreciate your 
work on behalf of our country. You are in a very, very 
important region.
    I also want to begin by joining in the chairman's comments 
about the terrible tragedy in Japan and the impact there, to 
pass along our best wishes to a very strong partner and a very 
strong nation, during a very difficult time.
    And also, to thank the Pacific Command for all of their 
work, to help with that disaster you have done an amazing job 
and shown, I think, once again, what the reach of the U.S. 
military can do in terms of humanitarian, in terms of being 
able to help people when they need it most, throughout the 
world, you have been a fine example of that in Japan, though I 
know the challenges remain great.
    So, thank you for your service on that.
    More broadly speaking, I think the Pacific Command covers a 
very vitally important region.
    There are many challenges in that region, but I think also 
there are great opportunities.
    Some of the larger, strongest economies in the world are 
there, as well as a lot of others that are emerging. These are 
some of the central emerging markets in the world and a 
positive relationship between the United States and these 
countries can be critical towards our economic growth, towards 
our economic opportunities and certainly towards creating a 
more stable world. And I appreciate both of your work to try to 
make that happen.
    Obviously, in the region, beyond Japan, is a central 
partner. China is a critical, critical country. And building a 
more positive relationship with them, I think, is very 
important as we go forward, and also very difficult, because 
our interests do not always coincide. But I still believe that 
what we have in common outweighs what is different and I think 
with strong leadership, we can build positive partnerships so 
that, hopefully, as we go forward, China works with us 
occasionally to help the stability of the region and the 
stability of the world, for that matter.
    So, the relationship with China is critical; anxious to 
hear what you gentlemen's take is on where that is at.
    And then lastly, of course, is North Korea itself. I agree 
with what the chairman said, very volatile area, very dangerous 
and seemingly getting more so every day. So, I look forward to 
your testimony about how we manage that very difficult 
challenge to regional and global stability.
    With that, I yield back and I look forward to your 
testimony.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 45.]
    The Chairman. Thank you.
    Both of your testimonies will be included, completely, in 
the record. We look forward to hearing what you have to say.
    Admiral.

   STATEMENT OF ADM ROBERT F. WILLARD, USN, COMMANDER, U.S. 
                        PACIFIC COMMAND

    Admiral Willard. Thank you, Chairman McKeon.
    And, Mr. Chairman, in order to accommodate the committee's 
questions sooner, I will keep my remarks here brief and, as you 
have already suggested, ask that my full statement be included 
for the record.
    Chairman McKeon, Congressman Smith, thank you for this 
opportunity to appear before you and discuss the United States 
Pacific Command and the Asia-Pacific region.
    I would like to extend our best wishes to Representative 
Giffords for a speedy recovery. As a Navy spouse, she is a key 
member of our military family and our thoughts and prayers 
remain with her and with her family.
    I would like to begin by recognizing my wife, Donna, who 
has been at my side for 37 years. She is an outstanding 
ambassador for our Nation and a tireless advocate for the men 
and women of our military and their families. She recently 
accompanied me to Japan where she met with service spouses and 
then traveled into the tsunami-stricken region to visit a 
shelter for 1,200 displaced Japanese survivors.
    On that note, I would like to begin by offering our deepest 
sympathy for the people of Japan who have been affected by an 
unprecedented confluence of earthquakes, tsunamis and 
consequent nuclear accidents.
    In the midst of tragedy, the people of northern Honshu have 
demonstrated remarkable courage and resolve. Their ability to 
endure, to assist one another through hardship, to clean up 
their communities and recover their lives should be an 
inspiration for us all.
    The devastation Donna and I have observed from the 11th of 
March natural disasters was staggering. And the significance of 
the continuing nuclear crisis adds a level of disaster response 
complexity and urgency that is without peer.
    U.S. Pacific Command remains fully committed to supporting 
response efforts by the Japanese Self-Defense Forces. I 
established a joint support force in Japan, whose mission 
includes humanitarian assistance and disaster relief, including 
support to the Japanese defense forces who are spearheading the 
Fukushima nuclear accident response.
    At the same time, we are guarding the safety of U.S. 
service personnel and their families, whether they are 
operating in direct support for the relief effort or carrying 
out their normal duties at their home bases.
    A second PACOM joint task force planned and executed the 
voluntary departure of spouses and dependents, and maintains a 
follow-on departure plan, should it be required.
    The level of cooperation and collaboration between the 
service men and women of the United States and Japan has been 
remarkable, and the job they are doing together is inspiring.
    Worthy of special recognition is General Oriki, Japan's 
Chief of the Joint Staff, for his exceptional leadership of 
nearly 100,000 Japanese service members who are engaged in this 
effort.
    Our ability to quickly and effectively support their work 
is testimony to the maturity and strength of the U.S.-Japan 
alliance.
    No doubt, Japan will emerge from this terrible combination 
of disasters a stronger nation. Our hopes and prayers continue 
to go out to the Japanese people.
    Natural disasters are but one of the many challenges facing 
the United States Pacific Command throughout the Asia-Pacific. 
This vast region that covers half the earth is unique both in 
its size and diversity and the importance to the future of 
every other nation in the world.
    Containing the great populations, economies and militaries 
along with more than $5 trillion of seaborne commerce per year, 
this region has been and will continue to be of utmost 
importance to the United States.
    The United States Pacific Command's role is to oversee its 
security and to help to keep the peace both in our Nation's 
interests and in the interests of our five treaty allies and 
many regional partners.
    The security environment is never static. Rather, it is 
characterized by a dynamic range of 36 nations, whose varying 
personalities and influence more or less affect the 
neighborhood.
    Each of our four sub-regions--Northeast Asia, Southeast 
Asia, South Asia and Oceania--contain unique challenges and 
challengers that test our collective commitment to security and 
peace.
    Yet, in the face of actors such as North Korea, 
transnational extremist organizations such as Lashkar-e 
Tayyiba, Jemaah Islamiyah, Abu Sayyaf Group, and uncertainties 
created by a rapidly expanding and assertive Chinese military, 
multilateral organizations such as ASEAN [Association of 
Southeast Asian Nations], the East Asia Summit, and bonds 
between the United States, its allies and partners serve to 
moderate the challenges, deter the challengers and provide 
forums for advancing the collective security of the Asia-
Pacific region.
    Overall, the prospects for continued peace, economic growth 
and advancing security cooperation in the region remain 
promising.
    We are repeatedly reminded that only through the U.S.'s 
ability and willingness to underwrite the security through our 
continuous presence, extended deterrence and protection of the 
global commons upon which the region's livelihood depends, will 
regional peace and security endure.
    Every day, our soldiers, sailors, airmen, marines and 
civilians work to advance security in the Asia-Pacific. Their 
success has long been enabled by this committee's sustained 
support. You have provided the service men and women of USPACOM 
with the most technically advanced military systems in the 
world and a quality of life worthy of the contributions of this 
All-Volunteer Force.
    On behalf of the more than 330,000 men and women of United 
States Pacific Command, thank you and thank you for this 
opportunity to testify on our defense posture in this most 
critical region of the world.
    I look forward to your questions.
    [The prepared statement of Admiral Willard can be found in 
the Appendix on page 47.]
    The Chairman. Thank you very much.
    General Sharp.

 STATEMENT OF GEN WALTER ``SKIP'' SHARP, USA, COMMANDER, U.S. 
                          FORCES KOREA

    General Sharp. Chairman McKeon, Representative Smith and 
other distinguished members of this committee; I welcome this 
opportunity to discuss the current state of the United Nations 
Command, Combined Forces Command and United States Forces Korea 
and to answer your questions.
    I also want to thank this committee for its support for our 
service members, Department of Defense civilians, and family 
members that are all working together in the Republic of Korea.
    The Republic of Korea, a strong and enduring ally, is 
located in Northeast Asia, where the world's largest militaries 
and economies reside. The Republic of Korea-U.S. alliance 
ensures security and stability in Northeast Asia.
    The Republic of Korea is also a great global security 
partner with a PRT [Provincial Reconstruction Team] in 
Afghanistan, anti-piracy operations off the coast of Somalia 
and several U.N. peacekeeping operations around the world and 
they are assisting in tackling proliferation.
    Most importantly, the Republic of Korea and the U.S. 
alliance continues to face a North Korea that threatens both 
regional and global security and peace.
    Last year, the Republic of Korea was the victim of two 
unprovoked attacks by North Korea. On 26th March, 2010, a North 
Korean submarine attacked the Republic of Korea naval ship, the 
Cheonan. And on 23rd November, 2010, a North Korea artillery 
barrage on the Republic of Korea island of Yeonpyeong-do.
    These brutal attacks resulted in the death of 48 South 
Korean service members and 2 civilians and numerous other 
casualties.
    The command's mission is to deter North Korean provocations 
and aggressions and if deterrence fails, to fight and win.
    In support of this mission, forces are maintained on the 
Korean Peninsula and operate closely with our South Korean 
allies.
    The command's first priority is to prepare to fight and 
win. Maintaining a combined ``fight tonight'' readiness is a 
key reason why U.S. forces are stationed alongside their Korean 
counterparts in the defense of the Republic of Korea.
    The alliance stands ready to address the full spectrum of 
conflict that could emerge on the Korean Peninsula.
    Maintaining this preparedness is accomplished through the 
development and continual refinement of our bilateral plans to 
deter and defeat aggression, while maintaining an ability to 
respond to other destabilizing conditions that could affect the 
Korean Peninsula.
    Successful execution of these bilateral plans will require 
a well-trained force; three annual, joint, combined and 
interagency exercises, Ulchi Freedom Guardian, Key Resolve and 
Full Legal Service, key enablers for maintaining the combined 
command's ``fight tonight'' readiness, while also preparing for 
the future transition of wartime operational controls.
    The second priority of the command, to strengthen the 
Republic of Korea-U.S. alliance, supports the June 2009 United 
States-Republic of Korea Joint Presidential Vision Statement. A 
strong alliance better deters North Korea's provocative acts 
and promotes peaceful, secure and prosperous future for the 
Korean Peninsula, the Asia-Pacific region and the world as a 
whole.
    Last year, President Obama agreed to the Republic of Korea 
President Lee Myung-bak's request to adjust the timing of the 
transition of wartime operational control from April 2012 to 
December of 2015.
    He also agreed to develop a plan to better synchronize all 
of the ongoing transformation initiatives, of which OPCON 
[operational control] transition is just one of the elements.
    Called ``Strategic Alliance 2015,'' this plan was affirmed 
and signed by the United States Secretary of Defense, Robert 
Gates, and the then Republic of Korea Minister of Defense, 
Minister Kim Tae-young, at the 42nd security consultant meeting 
in October of 2010.
    Strategic Alliance 2015 synchronizes multiple U.S. and 
Republic of Korea transformation efforts that are designed to 
build adaptive and flexible capabilities to deter and to defeat 
aggression, should it occur.
    Key elements of Strategic Alliance 2015 include refining 
and approving combined defense plans, defining and developing 
the new organizational structures and capabilities required by 
the Republic of Korea to lead the war fight, implementing more 
realistic exercises based upon the North Korean threat of today 
and tomorrow, preparing for the transition of wartime 
operational control in 2015 and consolidating U.S. military 
forces in the Republic of Korea onto two enduring hubs, under 
the Yongsan Relocation Program and the Land Partnership 
Program.
    This repositioning of U.S. forces in the Republic of Korea 
improves force readiness and quality of life, my third 
priority. It realizes stationing efficiencies and signals the 
continued American commitment to the defense of the Republic of 
Korea and engagement in the region more broadly.
    Restationing also enhances force protection and 
survivability.
    Finally, normalizing tours in Korea was reinforced in 
October of 2010, when Secretary of Defense Gates directed the 
U.S. Forces Korea into services to proceed with full tour 
normalization as affordable.
    As a force multiplier, tour normalization keeps trained and 
ready military personnel in place for a longer period of time. 
It improves readiness, combat capability, lowers turbulence in 
units and reduces the stress placed on troops, units and 
families.
    In closing, the men and women assigned to United Nations 
Command, Combined Forces Command and U.S. Forces Korea remain 
committed and stand ready. Our ongoing efforts to implement 
Strategic Alliance 2015, the Yongsan Relocation and Land 
Partnership Program and tour normalization demonstrate a long-
term U.S. commitment to not only security for the Republic of 
Korea, but for the broader region of Northeast Asia as well.
    I am extremely proud of the soldiers, sailors, airmen, 
marines, Department of Defense civilians and their families 
serving in the great nation of the Republic of Korea. And your 
support for them is truly appreciated.
    This concludes my remarks, and I look forward to your 
questions.
    [The prepared statement of General Sharp can be found in 
the Appendix on page 77.]
    The Chairman. Thank you.
    Admiral Willard, the IISS Report I mentioned in my opening 
statement is just the latest analysis that suggests there is 
unease among American allies in the Pacific. What do you hear 
about perceptions of the United States in this region and this 
growing disparity between the growth of China's military and 
plans to cut defense spending in the United States due to 
budgetary pressures?
    And what more can the U.S. military do to bolster 
confidence in our allies and deter future aggression in the 
region?
    Admiral Willard. Yes. Thank you, Chairman McKeon.
    The general perception, I think, within the Asia-Pacific 
and, especially among Southeast Asian nations, when I took 
command a year and a half ago, was of uncertainty regarding 
U.S. commitment to the region overall and frankly uncertainty 
regarding our presence in the region and whether or not, as a 
consequence of the wars in the Middle East, that had been 
diminished.
    We have made a concerted effort, and I think Secretary 
Clinton and Secretary Gates' commitment to the region and 
statements made in Vietnam and Singapore, throughout 2010, 
helped to reinforce and re-establish the United States' 
commitment to the Asia-Pacific.
    The presence of our forces has been made more noticeable.
    Interestingly, in this region of the world, for many of 
these nations, in order to know that we are present, we have to 
tell them and so part of that message has been shared.
    But I think that our allies in the region, in particular, 
and Australia, to point out one, have been vocal regarding 
their desire to help enhance U.S. presence throughout the 
region, and especially in Southeast Asia, in and around the 
South China Sea, by making overtures to the United States to 
team more broadly with them and perhaps enable a rotational 
force presence from regions closer to that particular area.
    The Chairman. Thank you.
    General Sharp, do you agree with the IISS assessment that 
the Korean Peninsula is now as dangerous a place as it has been 
any time since the end of the Korean War in 1953? And how do 
the South Koreans view their relationship with the U.S. today?
    The South Koreans have made significant strides in 
developing a robust military capability, in light of the 
existential threat they face from the north. This growth in 
capability has enabled the United States to reduce its presence 
on the peninsula, somewhat.
    Please explain how tour normalization will help you 
increase readiness, even with a smaller force. What else do you 
need in terms of facilities and family services to achieve 
these goals?
    General Sharp. Sir, thank you.
    If you look at, back, over last year, the two attacks that 
I named and then look forward over the next couple of years, I 
believe that there are some real challenges from North Korea 
that we have to be prepared to deter and if deterrence does not 
work, be prepared to respond to.
    And as North Korea works through the succession that they 
are ongoing now, as North Korea tries to become, as Kim Jong-Il 
has claimed, to be a great and powerful nation in 2012, I do 
worry that there are additional attacks and provocations that 
are being considered within North Korea.
    We call on North Korea, that those are not necessary and we 
are working very hard with the Republic of Korea to deter any 
future provocations, but be prepared if deterrence does not 
work.
    The way that we are working through that, as you said, is 
to make sure that the alliance is as strong as it can be right 
now and we are of one voice and one set of actions in order to 
be able to prepare for North Korea.
    We have 28,500 troops in North Korea at this time and it 
has been that way for the last several years under Secretary 
Gates and President Obama's leadership. They have said that 
force level will be sustained for the foreseeable future.
    And I believe that is about the right force level for Korea 
to do what we need to deter and to respond across a wide range 
of possible scenarios from North Korea.
    U.S., specifically, help toward normalization has helped 
increase the alliance together and increase our readiness. And 
we have moved from, in the summer of 2008, about 1,700 command-
sponsored families to the point now where we have over 4,100 
command-sponsored families in Korea.
    All of those forces have moved from a force where you would 
rotate one year at a time to troops that are now there for 2 
and 3 years. You can imagine the increase in unit capability, 
unit cohesion if you don't have to train new soldiers every 
year.
    I have seen, just in that short period of time, a great 
increase of readiness of our units, a great, stronger desire 
within units to make differences within units. If you stay 
there one year at a time, you can stand on your head for a 
year. You really don't focus on the long-term good for units 
and the overall strength that your unit needs to be.
    So as we move forward and toward normalization and as I 
said in my opening statement, I and the services owe to 
Secretary Gates an affordable plan to be able to move, where 
all of our families can come to Korea and Korea can become a 
tour, just like Germany, just like Japan, where you are there 
for 2 and 3 years at a time, really focusing on not only your 
unit, but also improving relationships on a personal basis 
within the Republic of Korea.
    That plan is going to the Secretary over the next month or 
so. He will then make decisions on how to move forward, based 
upon the budget and the importance of this initiative and that 
will be presented to you all on the budget that comes forward 
next January.
    The Chairman. Thank you very much.
    Ranking Member Smith.
    Or, Ms. Bordallo.
    Ms. Bordallo. I don't think I look like Smith.
    The Chairman. Not at all.
    Ms. Bordallo. Thank you, Mr. Chairman. And first I would 
like to say that as a representative from Guam, I too join the 
rest of the world in sending our deepest sympathies to the 
people of Japan.
    The people of Guam, in their generosity, have organized 
many fundraising drives on the island and at last count, when I 
was home, we have raised several millions of dollars.
    Admiral Willard and General Sharp, thank you for your 
testimonies this morning. And Admiral, for your information, 
with all the increased activities going on in Guam now, we are 
still afloat.
    Admiral Willard. Thank you, ma'am.
    Ms. Bordallo. My first question is for you, Admiral. Can 
you describe what progress the U.S. and Japan are making toward 
achieving tangible progress? Tangible progress is often 
portrayed as the time when we can move a single Marine off 
Okinawa to Guam.
    But I do know, in reality, much must be achieved before 
tangible progress can be realized. MILCON [military 
construction] on Guam must continue to achieve slow and steady 
progress, so in due course, a Marine can move to fully 
functioning facilities on Guam.
    So, what are some of the immediate and medium-term steps 
that must be taken to achieve tangible progress in Okinawa?
    And further, Admiral, can you describe how this year's 
military construction budget for Guam achieves our commitment 
to the Guam international agreement?
    Admiral Willard. Thank you, Congresswoman Bordallo.
    The progress toward the Futenma Replacement Facility [FRF] 
that occupied so much of our time with the Japanese last year, 
we think has begun to move forward this year, as a consequence 
of both Prime Minister Kan's commitment to seeing this forward, 
to the conclusion of the local elections in Okinawa that took 
place last fall, and most importantly the continued effort on 
the part of both the Office of the Secretary of Defense [OSD] 
and the Ministry of Defense in Guam to continue their dialogue, 
through working groups, in order to accomplish what we need to, 
to move FRF forward.
    And we are progressing toward the signed commitment by the 
governor of Okinawa to begin to make the actual contracting and 
movement of soil for the first time in the FRF location.
    I think there are some issues to finalize with regard to 
runway configuration and so forth, some items that we have 
talked about in the past. But we feel that progress is being 
made.
    I think the overall budgetary commitment on the part of the 
Government of Japan toward Guam remains strong. They continue 
to carry a considerable amount forward for Guam, DPRI [Defense 
Policy Review Initiatives] issues. And as you and I have 
discussed, previously, they have continued to make overtures 
that despite the crisis that is currently ongoing in Japan that 
they will be able to continue to proceed with the tenets of 
DPRI, of which Futenma Replacement Facility and the movement of 
8,000 Marines to Guam is only one of 19 actions that DPRI 
contains.
    So, I feel confident that progress, tangible progress, is 
in fact being made. There are uncertainties, unquestionably, as 
a consequence of what else Japan is contending with now and the 
scope of that disaster in terms of financial impact to Japan. 
But with the commitments that you have heard and that I have 
seen from the Japanese and the continued progress that we have 
seen being made, at least in dialogue, if not in actual 
construction, I am confident that we will continue to progress 
towards the tenets of the defense review initiative.
    Ms. Bordallo. Admiral, I also--the second part of that 
question is how about this year's military construction budget 
on our part?
    Admiral Willard. I will have an opportunity next week to 
discuss our military construction budget before the MILCON 
committee. And we intend to discuss Guam initiatives in 
particular.
    I remain concerned that there be sufficient commitment 
within the MILCON budget to proceed with the infrastructure 
development in particular, attendant to the Marine Corps 
facilities as they have been described.
    So, the infrastructure in and around the area south of 
Andersen Air Force Base, Finegayan and the infrastructure 
needed on the defense posts themselves in the area of Andersen 
Air Force Base, both very critical to precede the development 
of housing and other military construction that comes later.
    Ms. Bordallo. Thank you. Thank you very much, Admiral.
    And my next question is for General Sharp. General, I 
believe we share a common mission of layered defense against 
potential North Korean aggression. In Guam, we are poised to 
host the development of a ballistic missile defense system that 
will be a key component of strategic deterrence in the Pacific.
    What other elements of defense do you see as necessary to 
demonstrate U.S. resolve in the Pacific theater? And how else 
should the administration and the military illustrate that 
regardless of events taking place around the world today, we 
are still committed to assured access for us and our allies to, 
and freedom of maneuver within, the Pacific global commons?
    And I once heard a general officer recently at a hearing 
who was stationed in Korea state that he felt more comfortable 
when the B-52s or the B-2s were stationed in Guam. So do you 
share that sentiment?
    And can you explain the role of long-range strike on the 
Korean Peninsula?
    General Sharp. Thank you. I can answer from a Korean 
Peninsula perspective and then the broader--the Pacific 
perspective and I am sure Admiral Willard would like to comment 
on that.
    Within Korea, we are working very hard to make sure that 
our missile defense both the Republic of Korea and the U.S. 
alliance are strong and prepared for what North Korea could 
throw at it. And so the Republic of Korea is moving forward, 
buying and employing more radars and command-and-control 
systems for their Patriots, which they have recently bought.
    They just launched the third Aegis ship.
    We are working in concert with them to establish a good 
system within the Republic of Korea for missile defense in 
order to protect the valuable assets that we would need if we 
have to go a war fight there.
    The deterrent value that comes from the B-52 and other 
systems that Admiral Willard would send to the fight in Korea 
is a huge--more than just a deterrent value, it is critical for 
our war fight and it is key component in order to be able to 
take down long-range systems, to include missiles that would be 
coming towards South Korea.
    But that is from a Korean perspective of what we are 
working together to be able to do. I don't know if you want to 
add any comment?
    Ms. Bordallo. Admiral.
    Admiral Willard. I would just comment that among five 
treaty allies in the Asia-Pacific region, the Republic of Korea 
is certainly an important one.
    The systems at Andersen Air Force Base in Guam, 
specifically the B-52s and B-2s, as you have mentioned, are an 
element of the extended deterrents that the United States 
affords our allies and partners in the region.
    And certainly their ability to respond to contingency on 
the Korean Peninsula is an important part of why they are 
there.
    Ms. Bordallo. Thank you.
    Mr. Chairman, I have one quick question, one more.
    This is for you, Admiral Willard. We have had some 
significant achievements in progress in reducing the 
capabilities of extremists in the southern Philippines, thanks 
to a number of initiatives with the Philippine military, 
including the State Partnership Program.
    Are there any lessons in this anti-insurgency strategy in 
the Philippines that we could utilize in Afghanistan?
    Admiral Willard. I think that is a good question.
    The southern Philippines has been a relative success, we 
believe. Over the past half dozen years, the 400 or 500 special 
operators that Pacific Command has maintained in the southern 
Philippines have done a credible job in working with the Armed 
Forces of the Philippines in order to defeat and contain Abu 
Sayyaf Group and Jemaah Islamiyah extremists that were 
operating there.
    And we think we are at a point where planning can commence 
for a next phase.
    So in general, we consider this to have been successful.
    I think one of the key comparisons between the southern 
Philippines and Afghanistan has been the role that the Armed 
Forces of the Philippines have played in the lead of this 
counterterrorism effort.
    And when you consider the work that is ongoing in 
Afghanistan, in order to build up the Afghani security forces 
and Afghan police forces, in order to make them as self-
sufficient and accomplished as the Armed Forces of the 
Philippines has been, it points to the need for that work to 
continue.
    So, I think the idea of our Armed Forces being in support 
of a self-sufficient host-nation armed force that can conduct 
the counterterrorism in the lead is the lesson that we have 
derived from our success in the Philippines.
    Ms. Bordallo. Thank you very much and thank you, Mr. 
Chairman.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    I would like you to take two questions for the record, if 
you would, because I think that at the table, you may not have 
the consultation necessary to formulate an adequate answer.
    The first for Admiral Willard, the Chinese, as you know, 
are buying oil reserves all over the world. We use 25 percent 
of the world's oil. We produce--we have only 2 percent of the 
world's reserves. We import about two-thirds of what we are 
using and yet we are buying no oil reserves anywhere in the 
world.
    You might note that at the same time, the Chinese are 
aggressively building a blue-water navy.
    Why this difference in our national strategies, relative to 
the purchase of oil? And how should this instruct us for our 
future planning?
    General Sharp, there is a nuclear detonation above the 
atmosphere in--over Korea. The North Koreans, in a panic, call 
and say, gee, I am sorry that bird got away from us, but we 
detonated it in the atmosphere so it wouldn't produce any harm.
    Of course, it will produce a huge electromagnetic pulse.
    How much of your warfighting capability will be decremented 
by this as compared to the North Koreans? And what will be the 
effect of that on our warfighting capability?
    I would like to read a couple of brief paragraphs from an 
op ed piece in the April 4th commentary in the Washington 
Times. It is called ``Dear Leader to Dead Duck.'' And it is 
ostensibly written by Kim Jong-Il and he is admonishing Qadhafi 
as to his failures.
    ``The imperialists call us both crazy men, but there is a 
difference. They fear my craziness, not yours. This time last 
year, our glorious North Korean military forces struck like a 
hammer and sank a warship belonging to the puppet regime below 
our southern border. What did the imperialist forces do? 
Nothing. A few months later, we shelled the territory, right in 
the middle of their war-game practices. What did they do this 
time? Again, nothing.''
    ``You, on the other hand, have not raised a hand against 
these sniveling hypocrites for many years. You played ball with 
them, as they like to say. You allowed the yellow wind of 
capitalism to blow through your country. You invited the giant 
capitalist bloodsucker BP to siphon off your people's 
birthright for its own profit, all so fat capitalists can ride 
around in luxury vehicles.''
    ``Oh, what a mistake it was to give away your weapons of 
mass destruction.''
    And it goes on.
    And my question is, how much of the world sees it this way?
    General Sharp. Sir, I believe that--I can talk for the 
Republic of Korea and our alliance there, is that we do believe 
that North Korea is continuing to develop their nuclear 
weapons.
    Kim Jong-Il has said that. He has said the importance of 
that to him; that he will--his plan is to continue to do that. 
I do not believe that he will give that up.
    What we worked to do is to be able to deter future attacks 
that will come out of North Korea, like the two that are 
mentioned in those articles.
    The Republic of Korea and the U.S. since then have made 
great progress in strengthening the defenses for the types of 
provocations that North Korea has and could do in the future.
    We are working very hard to have appropriate plans in place 
to not only deter, but be prepared for a strong response 
against North Korea.
    I think that from a South Korean perspective, the attack on 
YP-do, Yeonpyeong-do, on the 23rd of November changed the 
Republic of Korea. At that time, the Republic of Korea, 
everybody across the nation was watching that attack live on 
their handheld devices.
    It was clear evidence that North Korea was willing to 
attack the Republic of Korea and kill civilians. And that 
changed the Republic of Korea's view that if North Korea does 
attack again, a very, very strong response, proportionate, but 
strong response, in self-defense will be going back towards 
North Korea.
    There was a response on the 23rd of November, a fairly 
rapid response that went back as far as artillery, back towards 
the source of the provocation.
    Since then, a lot of work has been done to really determine 
what is the appropriate response and the accuracy of that for 
future types of provocations.
    Mr. Bartlett. Thank you very much and I look forward to 
your written responses to my questions for the record. Thank 
you very much.
    [The information referred to is classified and retained in 
the committee files.]
    The Chairman. Thank you. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Admiral Willard, General Sharp, I want to thank you both 
for your attendance here today and most especially for your 
service to our Nation.
    Let me begin by also thanking the sailors and marines who 
have assisted with the recovery effort in Japan. They are 
obviously--Japan is one of our Nation's most important friends 
and allies in the region and, clearly as a sign of respect and 
a sign of how important that friendship is, that we send our 
best and brightest young men and women to their aid in their 
time of their national need.
    Gentlemen, I want to discuss several topics right now that 
are of personal interest to me around two strategic issues vis-
a-vis our military posture in the region.
    Over the past 10 years, China has made significant 
investments in their ability to project regional sea power, 
specifically a rapid increase in the size of their submarine 
fleet.
    In the U.S., we have begun the process of doubling our 
production rate for the superior Virginia-class submarine. 
However, we still face the near-term challenge of a declining 
fleet.
    So Admiral Willard, can you please discuss some of the 
importance of the U.S. submarine fleet in the Pacific and 
China's decision to increase its seapower projection 
capabilities?
    Admiral Willard. I think, unquestionably, China has made 
tremendous investment in its maritime capabilities across the 
board, to include the PLA [People's Liberation Army] Navy. And 
we have no doubt that they have aspirations to make that a 
blue-water navy that is deployable around the world and they 
are demonstrating that today, with anti-piracy operations in 
and near the Gulf of Aden. And they demonstrated it, to a 
lesser extent, by moving some of their surface fleet into the 
Mediterranean Sea during the Libya crisis in order to assist in 
evacuating Chinese citizens.
    So, they are expanding their fleet, patrolling more, 
penetrating the first island chain and extending their 
operations further into the Pacific on a fairly steady pace.
    The importance of United States submarines to the Asia-
Pacific can't be overstated. The submarines afford us both a 
covert and highly capable platform from which to characterize 
the undersea environment and to help to dominate that domain.
    The increased production of the Virginia-class submarine, I 
think, was a critical national decision for the United States 
and a very important one for the naval forces. And I think an 
important one, at the end of the day, for U.S. Pacific Command.
    And there is no question that within that PLA Navy 
expansion, they have placed great emphasis on an expanding 
submarine force in their own right. And we endeavored to watch 
that development, that dimension of the PLA Navy development, 
very closely.
    Mr. Langevin. Thank you, Admiral.
    The second issue I wanted to discuss was the threat to the 
U.S. and our allies from ballistic missile attack. The North 
Korean government has proven time and again its willingness to 
dangerously push the line of what is acceptable behavior in the 
region.
    Given their interest in developing missile technology and 
nuclear capabilities, it is vitally important to retain a 
serious missile defense capability in the region. Admiral 
Willard and General Sharp, could you both please discuss our 
regional defense--missile defense capabilities and their 
importance, not only to our own forces, but to the long-term 
security of our regional allies?
    In addition, what challenges do we face, relying on 
shipborne systems and is there any discussion of utilizing more 
land-based systems, such as those proposed under the 
President's European phased adaptive approach [PAA]?
    Admiral Willard. I will begin if I may, to say that we 
place great emphasis on what I would cast as a growing 
ballistic missile defense capability in the Pacific.
    There have been a number of investments, both on the 
command and control side of missile defense as well as on the 
platform and weapons side of missile defense.
    Our Aegis fleet continues to grow in terms of its 
capacities to provide for missile defense and the production 
line of standard missiles that our missile defense capable 
continues to produce.
    That said, for the United States, recalling when ballistic 
missile defense became a serious commitment, we continue to 
grow the capacities that are required to contend with the 
potential threats from sites such as North Korea.
    We currently believe that we have an adequate missile 
defense capability to contend with what we believe to be North 
Korea's threat that is posed to the region and to the United 
States.
    We continue to work with allies and partners to see their 
interest in developing their own missile defense capabilities. 
As you are aware, the Japanese are investing substantially 
there. And as General Sharp has already mentioned, the Korean 
Peninsula is investing both in land-based and considerations 
for sea-based tracking, if not ballistic missile defense 
capabilities.
    So this is a growing capability in the Asia-Pacific and a 
growing capability, as you are aware, elsewhere. And yes, we 
are considering the land-based systems that complement our sea-
based systems, such that we are not overly reliant on any 
particular domain, but rather we have the defense and depth 
that we think BMD [ballistic missile defense] demands.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Admiral and General, thank you for your service to our 
country and you have both done great jobs in helping to keep us 
free.
    And, Admiral, I particularly appreciate you mentioning your 
wife, Donna. We know oftentimes our spouses have greater 
sacrifices than we do. They just don't get to wear the medals. 
So we appreciate you mentioning that.
    Admiral, you have been great at talking about all the needs 
that we have in the Pacific and we thank you for that.
    In today's world, with all the gag orders we see coming 
from the Pentagon and the prescreening that is going on, 
oftentimes don't know what you can say and what you can't say, 
and so the best we can do is throw out the questions we think 
we need to ask for the defense of the country and then you can 
either answer it or glance off of it.
    But one of the things that I have been concerned about for 
years is the growing modernization we see with the Chinese 
military. It is unprecedented, I think, in terms of its speed 
and the depth that we have seen.
    And every time we ask about it, we always get the same 
response. Well, we don't want a conflict with China.
    None of us want a conflict with China.
    I don't think they want a conflict with us.
    Yet if you read all of their white papers, if you study 
their literature, if you listen to their comments, everything 
they do is focused upon us. Their modeling has our carriers in 
their modeling. They look at our weapons systems to defend 
against our weapon systems.
    If we don't ask the same questions, we are not being smart. 
We are being foolish.
    And so when you look at our strategy, they always come down 
to a number of things, but at the end, it is how long we can 
withstand an intensified conflict.
    If you look at some of their literature, they don't feel 
that we can take a body blow and keep going for a long period 
of time.
    My question for you, this morning, is with the resources 
you have under your command, if we did have an intense conflict 
that were to develop, none of us want it, but if it were to 
develop with the Chinese, given their growing modernization, 
how long could we sustain that kind of conflict?
    Admiral Willard. I think the question is a fair one. I 
think the question is a very difficult one to answer when you 
consider the vast number of scenarios that we may be discussing 
here in terms of any contingency the United States Armed Forces 
would face, depending on its intensity and the way in which we 
would choose to deal with it.
    There are obviously methods where United States Armed 
Forces, together with the whole of government, can approach a 
problem, not necessarily in the form of attrition warfare, in 
the way that we have classically contended, at times, in the 
past.
    So, how symmetrical, how asymmetrical, we would choose to 
approach a conflict matters and ultimately is part of the 
answer to your question.
    I think when you look around the world at what the United 
States has contended with, in the Middle East, 10 years of 
warfare and we remain pretty resilient and committed to 
finishing the warfare that is currently ongoing in Afghanistan.
    And at the same time, we are able to flex to issues like 
Libya.
    Or, in my case, flex to a large-scale disaster response in 
Japan.
    And continue to conduct an exercise series across the Asia-
Pacific, albeit, at a somewhat diminished rate. But 
nonetheless, we meet our commitments throughout the region.
    There is capacity in the Asia-Pacific that sometimes 
belies, I think, the assumptions made regarding both the combat 
power and the power to sustain operations there.
    I am confident that I have got the force structure right 
now postured forward and available to me to do the work that I 
need to do, to include a next contingency, should I need to 
confront one.
    Mr. Forbes. Thank you, Admiral. And, General, thank you for 
what you are doing.
    And, Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Gentlemen, I want to change the focus a little bit here and 
go Down Under.
    First, Admiral Willard, you mentioned New Zealand and 
Australia in your written testimony and New Zealand's 
contributions to supporting our common interests in a variety 
of ways around the globe.
    With regards to Australia, this is--I understand a 
discussion going on with the Force Posture Review with 
Australia and it is in discussion stage and I was curious about 
PACOM's role and your assessment of the progress of these 
discussions and the focus of these discussions?
    Admiral Willard. Yes. Thank you.
    The Australians have been extremely forward-leaning in 
their overtures to the United States Government and to the 
Department of Defense to consider whether or not increasing our 
level of involvement with their armed forces, taking advantage 
of some of the existing capacities in Australia would lend to 
an improved Pacific Command posture, particularly in accessing 
Southeast Asia and the South China Sea region.
    And we have taken a hard look at that. I, myself, visited 
Australia and nearly circumnavigated the continent. In viewing 
areas in northern Australia, the prospects of an improving 
force posture in those directions are very appealing.
    I think that those ongoing between the United States 
Government and Australia Government, the Office of the 
Secretary of Defense and the Ministry of Defense in Australia 
will likely lead to fruitful opportunities for us to provide 
for rotational forces in and out of Australia in the future. At 
least I am hopeful for that.
    As Secretary Gates made very clear, ultimately he will make 
a proposal into the U.S. interagency and beyond his 
recommendation. It will become a United States Government 
decision at the end of the day, with the Australian Government, 
obviously, in the ultimate discussion.
    Mr. Larsen. Thanks.
    And General Sharp, I sense you had some things to say with 
regards to Mr. Langevin's comments on regional missile defense 
and I had some questions about it too. So, I will give you the 
opportunity to sort of build on what Admiral Willard said, with 
regard to Mr. Langevin's question.
    But just with regards to the regional aspect of missile 
defense and how ROK [Republic of Korea] would fit into that?
    General Sharp. That is right. Thank you for the opportunity 
to say that.
    Just real quickly, also, on New Zealand and Australia, they 
are both, of course, key countries within the United Nations 
[U.N.] Command in the Military Armistice Commission, and last 
year were key components in the investigations of both of the 
attacks on North Korea, and participate in our exercises. So 
they are very important to my command also and what they would 
do for U.N. sending states and work very closely with that part 
of the alliance also.
    The only thing I was going to mention, in addition, on 
ballistic missile defense, is I think on a good defense, you 
also need a very strong offense. And to be able to have the ISR 
[intelligence, surveillance, and reconnaissance] type of 
assets, to be able to look into North Korea, to see what they 
are doing, I think what north--what the Republic of Korea is 
doing now to buy a Global Hawk, what we have done in order to 
be able to synchronize our ISR assets help in a ballistic 
missile, overall, architecture also.
    And then finally, on the proliferation side, PSI 
[Proliferation Security Initiative] is a big element to get 
nations to be able to work together to not allow proliferation 
of missiles out of North Korea, that type of technology to 
include nuclear technology and the Republic of Korea, being a 
member of the PSI group now, and recently hosting a large 
conference and exercise along those line are other things that 
are being done in order to be able to help stop both the use 
and the proliferation of missile technology and nuclear 
capability.
    Mr. Larsen. Okay. And then just quickly, I will see how 
quickly you can answer this question.
    In your testimony, you mentioned tour normalization as, I 
think, as affordable, perhaps. Does that indicate the budget is 
not big enough for tour normalization? Or how is that 
progressing?
    General Sharp. As I said, we are at the point now where we 
have reached about our capacity for all of the facilities that 
we have to bring families there now.
    And the limiting factor, to be honest, is schools and the 
building of more schools will be the next that go up.
    As Secretary Gates has said on several occasions, the goal 
is to be able to move to full tour normalization. But that 
costs money in order to be able to build the schools, to be 
able to build the apartments in order to be able to do that.
    And that is what we yield back to Secretary Gates. What is 
affordable? Over what time period in order to be able to 
complete this very important initiative, so that, I mean, 
today, as we sit here, there are 7,000 families that are 
separated for a year because we don't have the infrastructure 
in Korea to be able to afford to bring them.
    Secretary Gates has directed that we work to be able to do 
that at an affordable pace. As I said, in my opening earlier, 
that is what we owe him back over the next several months, so 
he can give direction to the service forces as they build their 
POMs [Program Objectives Memoranda] for submission next year.
    Mr. Thornberry [presiding]. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here and for your service. 
You certainly have an incredibly important area of the world as 
we look to the threats that are emerging.
    As we look to the threats that are emerging from North 
Korea and also from Iran, we turn to our issues of discussing 
missile defense and I would appreciate if you could discuss how 
the missile defense mission and the multi-mission capability of 
the Aegis ballistic missile defense ships are affecting the 
overall force structure requirements for the Aegis fleet.
    In particular, can you describe how operational 
considerations, such as the need for additional ships, for 
force protection, influence PACOM's overall missile defense 
force structure requirements, recognizing that an Aegis ship is 
going to need assistance, while it is providing missile defense 
capability?
    And according to a Defense News article in June of 2010, 
they stated that U.S. Aegis radar readiness plunges and 
indicated that it is in the worst shape ever, raising questions 
about the service fleets' ability to take on a high-profile new 
mission next year, defending Europe from ballistic missiles.
    Could you please discuss any Aegis readiness concerns that 
you may have and how it may impact the Navy's ability to meet 
missile defense mission requirements?
    Admiral.
    Admiral Willard. I will start with the second question 
first, if I may, and discuss the readiness piece.
    With the exception of all of our ships being steamed at a 
very high pace, and by and large they have been for the last 
decade, while we have been occupied in wars elsewhere and 
moving forces around a great deal, also maintaining our forward 
presence in the Asia-Pacific, there are not overarching 
concerns about Aegis readiness in my fleet.
    So, as far as Pacific Command is concerned, the readiness 
of the Aegis fleet, in terms of conducting its ballistic 
missile defense mission or any of its other multi-mission 
tasks, is not a concern for me.
    With regard to the multi-mission role of Aegis, and its 
self-protection capability, these are very competent platforms. 
As you allude, they have about a half a dozen missions that 
they contribute to, to include the intelligence, surveillance, 
and reconnaissance mission that was previously mentioned, but 
also an air defense mission, a surface defense mission, an 
undersea warfare mission and so on.
    So they are contributing to a great deal at any time when 
they are at sea.
    The ballistic missile defense capabilities that they have 
are limited only by virtue of the capability of the missile 
systems that they are employing.
    So as we see advances in the SM-3 system and larger 
envelopes, the freedom of action that the ships will have to 
operate at extended ranges away from ballistic missile sites 
where they can also perform that function will increase.
    So, over time, the freedom of action of ships committed to 
ballistic missile defense will improve as they also perform 
their other functions.
    I would have to understand the scenario you described to 
say that they themselves have to be protected while they are 
conducting BMD. The----
    Mr. Turner. Well, certainly they have needs for additional 
systems.
    I mean, but that does provide some demand on your overall 
ship force structure.
    Admiral Willard. Well, we operate in a variety of modes, 
you know, with other ships, sometimes singly. These ships, 
again, are pretty self-sufficient.
    So to understand the conditions under which they would be 
operating in a surface action group or in a larger carrier 
strike group as opposed to independently is something that is 
probably worth discussion.
    But, by and large, these ships are self-sufficient and, as 
you suggest, multi-role. To the maximum extent possible, we 
intend to keep them that way.
    As the ballistic missile defense missile systems continue 
to improve, the freedom of action to have these ships located 
at extreme distances from the ballistic missile threat sites 
will continue to improve as well.
    Mr. Turner. I look forward to having additional 
conversations about that.
    Thank you, Mr. Chairman.
    Mr. Thornberry. Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman.
    Thank you, General and Admiral, for being here.
    Mrs. Willard, thank you especially for your service. When 
we consider our military personnel, their families are front 
and foremost, also, with our considerations.
    General, we had talked about and you had mentioned earlier 
that South Korea has stated that, you know, if there are any 
provocations from North Korea they will respond in kind, and 
greater.
    In your opinion, how much of an impression can they make on 
North Korea? Can they--I am not asking for specifics, but, 
also, you all discussed this and is there any concern that they 
might overreact to provocation?
    General Sharp. Thank you. South Korea has a very strong 
military force that continues to grow stronger every day.
    In fact, they recently just published their new defense 
reform plan based upon a lot of lessons learned out of 2010 and 
are really focusing on the ability to be a more joint type of 
force that is optimized towards the North Korea threat that we 
see for today and in the future.
    Without getting into classified session, I have reviewed 
the plans that the Republic of Korea, and we have worked 
together on for a variety of different types of provocations.
    They are strong, appropriate and meet the test of self-
defense. I am confident in General Han, the Republic of Korea's 
chairman--who is a chairman for the Republic of Korea, and 
Minister Kim's capability to make sure that they, the South 
Koreans, do not unnecessarily escalate.
    What North Korea will do is up to North Korea. But I am 
absolutely confident that South Korea has the controls that the 
response that goes back will be firm, but it will not force an 
uncontrolled escalation from a South Korean perspective.
    Mr. Kissell. Thank you, sir.
    Admiral, we had hearings in the previous Congress. At one 
point in time, our ships as they were in international waters, 
were being, for lack of a better word, harassed by the Chinese 
fishing boats, whatever.
    We had trouble just simply making our way through the 
waters without, you know, fear of hitting other boats. You 
know, memory doesn't serve perfectly, but there were a couple 
of points where, you know, we did have interaction with some of 
these other ships.
    But I don't hear about that so much now at all. What is the 
status of that?
    Are they continuing to harass our movements in 
international waters? Or what is this relationship now?
    Admiral Willard. From the standpoint of the Chinese 
maritime activities in and around the East China Sea and South 
China Sea, Yellow Sea regions where we sometimes operate, we 
have not had confrontations with the PLA Navy or with their 
maritime security forces since the incidents that you allude 
to.
    The Chinese do continue to shadow some of our ships as they 
conduct their missions in international waters that are 
proximate to China.
    The confrontations that have occurred have occurred with 
our partners and allies in the region. You are, no doubt, aware 
of the incidents that occurred with the Japanese over the 
Senkakus and confrontations continue to persist in the South 
China Sea, most recently, with a Philippine ship that was 
operating there.
    So we continue to observe for, watch over, the maritime 
activities across the board that are occurring in the Southeast 
Asia region and East Asia region in order to ascertain where 
confrontations or conflict could emanate.
    But, to date, this year, there have been no confrontations 
with our forces.
    Mr. Kissell. Admiral, at one time, these confrontations 
were to the point where we had a hearing about it to talk about 
it; and, now that has been withdrawn is there a particular 
reason that you might know that they pulled back there? Or was 
it just recognizing that maybe that wasn't the best policy?
    Or just why do you think maybe that was negated in terms of 
what they are doing in terms of the relationship with us?
    Admiral Willard. Well, I think probably two things. One, I 
think the assertions made last year by the United States, in 
particular, Secretary Gates and Secretary Clinton, very strong 
statements within the ASEAN and the Shangri-La Dialogue series 
I think had an effect.
    I think the fact that the ASEAN nations themselves 
coalesced, marshaled around one another to protest the very 
assertive actions that we were seeing out of the Chinese over 
various maritime activities in the South China Sea.
    I think for those reasons they have at least tactically 
withdrawn from any confrontations.
    But, as well, we have resumed military-to-military 
relations with China. We at U.S. Pacific Command hosted a 
military maritime consultative agreement round of talks with 
them which has to do with maritime safety and air safety.
    And as you know, there had been visits in both directions 
with the President Hu's visit that had been preceded by 
Secretary Gates' visit to China.
    I think any time that the military-to-military relationship 
is ongoing and continuous, that the likelihood of confrontation 
such as you suggest is diminished.
    Mr. Kissell. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Thornberry. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Admiral Willard, General Sharp, thank you so much for 
joining us today. I enjoyed seeing you there at Newport News at 
the USS California ceremony there.
    Mrs. Willard, thank you so much for your effort there as 
the ship's sponsor. That was a great, great day.
    Admiral Willard, I did want to speak a little bit about 
what is going on with China's efforts to modernize their naval 
forces. As we know, there are some significant issues there.
    They are expanding their capability both with carriers and 
with other elements of their navy in being able to project sea 
power across the world.
    They are on the road to, I think, creating a fairly capable 
navy. As we know, they certainly have the quantity elements 
that begin to create some concern for us. They are working on 
the quality side of things.
    Right now, they are looking at it from a littoral zone 
issue as far as creating that force. But they are also 
projecting force out and beyond those particular areas and with 
a focus to, I think, go well beyond the littoral zone around 
China.
    As you know, just this past year, we have seen a Chinese 
presence in the Horn of Africa, also in the Mediterranean, the 
Red Sea and the Persian Gulf.
    So, that tells me that they are on track to do a little bit 
more than just protecting their shipping lanes and their 
littoral areas.
    In going back and looking historically about how the 
development of navies have occurred, I would like to go back to 
historian Rear Admiral Alfred Thayer Mahan and his idea about 
sea power.
    And of course, he projected this structure that nations go 
forthwith to be able to project sea power. As you know, at the 
end of the 19th century, he wrote pretty eloquently about that.
    In the years to come, Japan, the U.S., Germany and Britain 
all followed that. I think they have been pretty successful in 
projecting that particular seapower force.
    I want to ask you a question. That is, from their efforts 
in sustaining and executing sustained power projection through 
a navy--and, granted, they have got a ways to go--but in the 
21st century with the pace at which they are pursuing this, how 
do you see that as a challenge to our naval and air forces 
there at the Pacific Command?
    And where do you think that we need to be in order to make 
sure that we are countering that in that particular region in 
addition to all the other places where we are pulled to as we 
have humanitarian efforts that we are called to in that region?
    Let me ask you in your estimation where you see the Chinese 
future projection of naval power as a challenge and concern 
there for Pacific Command.
    Admiral Willard. I think, unquestionably, the Chinese have 
aspirations to expand their naval presence and are expanding 
their naval presence.
    Your summary, I think, was a very good one in terms of 
where they are operating today. We have no illusions that they 
don't desire to operate further into the Pacific and likely 
into the Indian Ocean region as well.
    I think they are learning to sustain their forces 
elsewhere. It takes time and training and persistence to 
understand how to sustain forces logistically when they are 
underway for long periods of time.
    They have done an incredible job with their counter-piracy 
effort. And I think, as a consequence, they are rolling the 
lessons learned back into their other naval activities.
    Most of their naval presence is in patrol activities in the 
Bohai, Yellow Sea, East China Sea, South China Sea region and 
will likely continue to be there for the foreseeable future as 
they explore their ability to conduct business elsewhere.
    In terms of concerns for Pacific Command, I think as long 
as we remain uncertain regarding future Chinese intent, either 
with their naval forces or any of their military forces, it is 
important that we take the necessary steps and make the 
necessary investments to pace those changes as we see them 
occur and be able to contend with any possibility of something 
other than a constructive Chinese navy or a constructive 
Chinese military in the region.
    That said, through the mil-to-mil dialogue that is 
currently occurring and, I think, with patience and persistence 
on the part of the United States in trying to work with China, 
that at the end of the day, we may see a Chinese military, 
including a Chinese navy, that is contributing to the broader 
security of the region and not, instead, contending it.
    Mr. Wittman. Okay.
    Mr. Thornberry. Mrs. Hanabusa.
    Mrs. Hanabusa. Thank you, Mr. Chairman.
    Aloha, Admiral and Mrs. Willard.
    Welcome, General and Admiral. Thank you for testifying.
    My question is, first, with the Admiral. Admiral Willard, 
especially for those of us in Hawaii, we are watching what is 
going on in Japan very critically.
    But we also do know that prior to this there were issues 
regarding the Democratic party and when they took over the 
Japanese Government and what the relationships would be with 
us.
    I think we were just getting to the point where we were 
getting a better understanding and then the tsunami and, of 
course, the earthquake tsunami and now the problems with the 
Fukushima-Daiichi has emerged.
    First, can you explain to me how important a role Japan 
plays as our ally in the Pacific area?
    Secondly, with what we have now experienced in all these 
different chains of events--and let's not also forget the 
constitution of Japan, which has limitations as to their 
military ability, what are we going to have to do, at least in 
the short term, to compensate for what is going on in Japan, 
assuming that their military role, with us, is critical?
    Admiral Willard. Yes, thank you very much, Congresswoman.
    We hear the alliance between the United States and Japan 
often referred to as cornerstone. I think that probably 
understates the importance of the alliance between the United 
States and Japan.
    In Northeast Asia, the ability to maintain a forward force 
presence in Japan affords us access into the Asia-Pacific 
region that otherwise would be very difficult to achieve.
    I think that it is a mutually beneficial alliance. I think 
the Japanese military, as a consequence of U.S. presence, has 
grown to be formidable and capable and, as you have already 
witnessed, extremely interoperable with our forces.
    I think the combination of the forward forces in Japan and 
the forward forces on the Korean Peninsula afford the United 
States an unprecedented deterrent forward in Northeast Asia 
that could be regarded as extended beyond that.
    So, you can't understate the importance of the alliance, in 
general.
    In the short term, the Japanese defense forces are 
committed to assisting in saving Northern Honshu and their 
nation from the confluence of disasters that they have 
experienced.
    At the same time, they remain a very accomplished force. 
They are continuing to conduct their military business in the 
region, notwithstanding the 100,000 or so ground forces that 
are committed to helping in Northern Honshu.
    I think that at the conclusion of this, as we finish the 
work of disaster response and humanitarian relief and turn it 
back over to agencies and the Government of Japan to administer 
to their people, you will see the U.S.-Japan alliance stronger 
as a consequence of the support that we have provided and the 
work that we have done together.
    You will see a Japanese defense force that will emerge from 
this stronger for having experienced it.
    Mrs. Hanabusa. So, Admiral, you don't believe that the 
change in the political party structure is going to interfere 
with our future relationship with Japan?
    Admiral Willard. I think that there were fits and starts as 
the DPJ [Democratic Party of Japan] administration assumed 
control of the Japanese Government. We saw that with one prime 
minister that ultimately departed in the midst of the Futenma 
Replacement Facility debate that was ongoing.
    Prime Minister Kan has enumerated many times his commitment 
to the U.S.-Japan alliance. I think he remains a strong 
proponent.
    I think after what has been witnessed following this 
regretful disaster in Japan, he will remain a strong advocate 
of the alliance and our way forward.
    So, right now, I am encouraged by the government's position 
with regard to alliance matters and the United States military 
and support to it in general.
    Mrs. Hanabusa. Mahalo, Admiral.
    Thank you, Mr. Chair.
    Admiral Willard. Mahalo.
    Mr. Thornberry. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    General Sharp, I have a cousin under your command over 
there right now. My wife's cousin has been over there.
    And just a question on the Korea issue; the people in South 
Korea and North Korea, is there a general desire that that be a 
unified country? Or do you believe that that leadership is in 
the way of the unification?
    Or do you believe that even with different leadership we 
would still see a South Korea and a North Korea?
    General Sharp. Sir, from the people of the Republic of 
Korea from South Korea from the president on down, there is a 
strong desire for a peaceful unification over time. There is no 
doubt in my mind about that.
    From a North Korean perspective, I think Kim Jong-Il 
focuses on regime survival, under any terms, in council and his 
continued development of nuclear capability and these 
provocative acts in order to be able to have his regime 
survive.
    Mr. Scott. So when the mortality tables catch him, is that 
going to be an opportunity there for the peace and unification 
of Korea? Is that----
    General Sharp. Sir, as you know, you know, Kim Jong-Un is 
his youngest son; we believe we see indications that he may be 
becoming groomed to be the successor.
    Now, what he does as he becomes the leadership in North 
Korea is yet to be seen. Obviously, we call upon him and 
whoever succeeds, you know, the succession process, within Kim 
Jong-Il, within the regime, to take advantage of that 
opportunity to be able to care more about their people and care 
more about human rights and dignity. But we don't see the 
indications of that happening, to be quite blunt.
    That is why we as a Republic of Korea-U.S. alliance are 
working very hard to make sure that we are prepared for a North 
Korea of the future that could potentially continue the types 
of acts that we have seen over the last couple of years and 
that continue to work to develop nuclear weapons.
    Again, there is another path that North Korea could take. 
But we have not seen indications that they are willing or ready 
or able to do that.
    Mr. Scott. Are other countries, in your opinion, working to 
nudge them down that path, to encourage that path? Or do you 
think that they are standing in the way of that path?
    General Sharp. I think that if you look at, really, the 
entire world, after the actions that North Korea took, not only 
last year, and the condemnation that they got from the United 
Nations, but also in previous years after the Taepodong launch, 
which was in direct violation of United Nations Security 
Council [UNSC] and the nuclear test, the world has called on 
North Korea to change their ways.
    But, as I said before, we don't see any action from North 
Korea headed in that direction at this time.
    Mr. Scott. Okay. Thank you, sir.
    Admiral Willard, the nation's 17th Joint STARS 
[Surveillance Target Attack Radar System] aircrafts are based 
out of my district, Robins Air Force Base.
    With everything going on, Afghanistan, Iraq, Libya, I mean, 
if something did start, if we got into an action with North 
Korea, would we have the ISR capabilities that we need?
    Or is that an area that we are stretched thin and with all 
the actions that are occurring around the world right now?
    Admiral Willard. Well, I would answer it in two ways. First 
of all, the ISR capabilities on the Korean Peninsula are 
probably as robust as they are anywhere in our military and 
consistently are maintained as such because we are in armistice 
and because we are constantly deterring the North.
    So, General Sharp enjoys, you know, a capability and, 
frankly, a priority and commitment from the United States in 
order to meet his surveillance needs.
    That has only been improved upon and has gained more focus 
since the events last year and, particularly, since the crisis 
on the Korean Peninsula on December 20th of last year.
    When you consider the way in which we invest in our 
intelligence, surveillance and reconnaissance capabilities, 
where, at large, during peacetime we kind of spread those 
capabilities around to the various combatant commands to meet 
all of our requirements, whether they are space-based or air-
breathers or ground-based sensor systems.
    Whenever we go to war, or whenever a contingency erupts 
somewhere in the world, we tend to bias those capabilities 
toward that contingency.
    So, for 10 years, we have given over many of those 
capabilities to the Middle East wars that have been fought. 
When something like Libya erupts, ISR goes in that direction.
    Frankly, when Japan and natural disasters occurred, ISR 
came in our direction in order to meet the demand signal of 
trying to characterize the Fukushima plants and the area that 
was affected by the natural disaster.
    So, we share in those assets, and they tend to move around 
wherever they are in demand.
    General Sharp. If I may just add to that from a coalition 
perspective, we work very hard in Korea to take advantage of 
the capabilities not only of U.S. ISR, but the Republic of 
Korea ISR.
    So, we have a combined intel center with analysts from both 
the Republic of Korea and the United States that have been 
working this problem on the Korean side for years and years.
    It is not just about airborne, it is, again, all of the 
different components of intel to make sure that we are getting 
a full picture of what is going on inside North Korea.
    So it is the U.S. assets that combine with the Republic of 
Korea and the tactics, techniques and procedures that we 
learned over the years give us that robust capability that we 
really need.
    And coalitions like what we have with the Republic of Korea 
are key to be able to do that in our part of the world and, 
really, around the world.
    Mr. Scott. Thank you, both.
    Mr. Thornberry. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    I thank the witnesses for their service and their 
testimony.
    It is almost exactly a year ago to the day when the Cheonan 
was attacked by North Korean mini-subs. The forensic evidence 
is indisputable in terms of the analysis that was done.
    Frankly, the denial of that evidence by the Chinese 
Government, even to some degree the Russian evaluation of this, 
I mean, frankly, when I listen to your answer, General, about 
the sort of international isolation of Korea in terms of its 
actions the last few years, I mean, frankly, in terms of at 
least the Cheonan, that really hasn't been the case.
    In terms of the mil-to-mil relationships, which you have 
been talking about with China, Admiral Willard, I mean, 
frankly, that is pretty discouraging because, I mean, that 
action just falls so outside any acceptable norm in terms of 
international law and, certainly, protection of sea lanes.
    I mean, can you update us at least in terms of whether or 
not you think there is any hope that we are going to get that 
international consensus about how, again, they violated, 
really, every level of law and decency in terms of what that 
attack represented.
    Admiral Willard. Are you referring to China----
    Mr. Courtney. Yes.
    Admiral Willard [continuing]. Russia not acknowledging 
the----
    Mr. Courtney. Correct.
    Admiral Willard [continuing]. International investigation 
report and so forth?
    Mr. Courtney. Yes.
    Admiral Willard. Unquestionably, there has been alignment 
on the part of both China and to, as you suggest, to a somewhat 
lesser extent, Russia, to moderate any condemnation of North 
Korea's actions last year.
    And that was disappointing. But it is important to realize 
that the PRC [People's Republic of China] remains an ally of 
North Korea. They maintain a mutual defense treaty together.
    The longstanding philosophy of the PRC has been one of non-
interference and a very strong desire for status quo or 
maintenance of just a stable condition on the Korean Peninsula 
regardless of the provocation that may have caused a 
disruption.
    We saw evidence of that replay itself last year. It is 
nothing new.
    It is an area in which the U.S. view and Chinese view are 
highly divergent. It is an area that I think between our two 
governments continues to need work, to your point.
    Mr. Courtney. I think that is a good answer. I just would 
say that, in this case, I mean, what we are really talking 
about just isn't about, sir, non-intervention. But it is really 
about denial of the truth about what happened there.
    I mean, that is what, again, in my opinion just raises a 
series of questions about, you know, how healthy the 
relationship is with the Chinese Government and military.
    I have only got about a minute and a half.
    I guess a follow-on question to that incident, you know, by 
all sort of press and public accounts, I mean, there clearly 
was a problem there for the Chinese Navy--excuse me--the South 
Korean Navy in terms of being able to detect these mini-subs in 
very shallow waters.
    You know, we have talked a lot about sea-based deterrents.
    I mean, if there is, it sort of raises a question about 
whether or not sonar capability is a problem in terms of making 
sure that we are going to have, you know, robust, sea-based 
deterrents if there are all these mini-subs that are being able 
to sort of hide in the noise of shallow waters.
    I wonder if you can sort of comment on whether or not you 
feel confident that we are okay and frankly, do we need to do 
more to help the South Korean Navy to deal with that issue?
    Admiral Willard. To your last point, we are doing more to 
help the South Korean Navy with their ASW [anti-submarine 
warfare] readiness and preparedness.
    The U.S. 7th Fleet has a long-term goal and a series of 
milestones to accomplish that. So we continue to train with the 
ROK Navy in earnest to ensure that our readiness is maintained 
at a very high level.
    But I think, to your first point, it is important to 
recognize that what occurred with Cheonan was an unprovoked, 
surprise attack, unexpected, typical of the provocations that 
we have experienced by Kim Jong-Il in the past.
    So this was a sneak attack, as you suggest, by a mini-sub 
with a torpedo in a shallow-water area when the relationship 
between the two militaries and the relationship on the water 
that particular night, you know, would not have caused their 
sonar men or anyone else in the military to have expected an 
egregious attack such as occurred. So very difficult to ever 
predict or imagine preventing an unprovoked surprise attack, 
one-off, such as occurred with Cheonan.
    But I think, to your point, that there is certainly a view 
inward that has been taken by the ROK Navy. We will continue to 
support, and General Sharp will oversee, and that is the 
improvement of readiness and elimination of vulnerabilities 
across the board to the extent that we can among both--across 
both sides, U.S. and Republic of Korea.
    General Sharp. And the Republic of Korea has not just stood 
idly by. They have aggressively gone after changes to their 
tactics, techniques and procedures out in the Northwest Island 
area in order to be able to counter that type of threat from 
the future.
    If you look in their defense reform, what they plan on 
buying and positioning out to take the sub threat and to be 
able to reduce their vulnerabilities, they are putting it 
against that, also.
    As Admiral Willard said, we work very aggressively in some 
anti-sub warfare exercises in order to be able to have the 
strongest both deterrent but then preparation if North Korea 
decides to continue that in the future.
    The Chairman [presiding]. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    General Sharp, Admiral Willard, thank you for your service 
to our country.
    General Sharp, first of all, I appreciate your time 
yesterday and the information you shared with me on the great 
job the men and women of U.S. Forces Korea do on a daily basis.
    General, I understand that the Republic of Korea will 
assume wartime operational control in 2015. Are you confident 
their forces are ready to assume this role, and if not, what 
action must be taken to ensure they become ready?
    General Sharp. Thank you, sir. I did very much enjoy 
visiting with you yesterday afternoon.
    I am absolutely confident that by 1 December, 2015, the 
Republic of Korea will be ready to take operational control and 
leadership of a future war fight.
    We are working very hard with the Republic of Korea as part 
of, as I said in my opening statement, the Strategic Alliance 
2015 Agreement that was signed by the Secretary and the 
Minister last October to ensure that readiness.
    Let me highlight just a couple important points that are in 
that agreement. And it also includes the milestones in order to 
be able to make sure that this event will occur and that, 
actually, the alliance will be stronger because of it.
    First off, we are working with the Republic of Korea to 
develop what are the capabilities they need in order to be able 
to lead the war fight after 2015 and--ensuring that once that 
that is agreed that that is in their budget they are bought, 
organized, trained and equipped with those capabilities.
    Secondly, we are revising our war plans to account for the 
fact that the Republic of Korea JCS [Joint Chiefs of Staff] 
will be in the lead of the war fight across the full range of 
the different war plans that we have. Those will be complete by 
December 2015.
    We will then take and exercise all of those war plans in 
our two annual theater-level exercises that we will have 
multiple times between now and 2015.
    Then the last thing I will say is that the professionalism 
and the capability of the Republic of Korea military is 
outstanding.
    I have seen over the last 3 years the capability, the 
decision-making ability, the willingness and the ability to be 
able to make sure that we are one team as an alliance between 
Combined Forces Command and the ROK chairman staff, which will 
be in the lead of the war fight, and increase enormously as a 
result of all these provocations that we talked about.
    So, yes, sir, I am confident that the Republic of Korea 
will be ready to lead the defense of their own country while 
maintaining the full commitment that the United States has as 
part of the alliance, not reducing our force and commitment. 
But they will be ready for the leadership role in 2015.
    Mr. Coffman. General Sharp, I know in our discussion 
yesterday that you felt that any reduction in the 28,500 U.S. 
military personnel on the peninsula would be the wrong message.
    But let me ask this question, that I understand that the 
intention of the Department of Defense was to draw down 
manpower at U.S. Forces Korea to 20,000, but that in 2008 the 
decision was changed to maintain manpower at 28,500.
    What would be the impact on operational readiness and the 
overall effectiveness of your command if this level was brought 
down to 20,000?
    General Sharp. Sir, as you correctly stated, when Secretary 
Gates came and looked at the path that we were on to move to 
20,000, at that time, my predecessor, General Bell, came to say 
we need to stop at where we are right now, which at the time 
was 28,500.
    I agree with that assessment, and Secretary Gates and 
President Obama, for that matter, have stated that that will be 
the level that we continue at in the future.
    To reduce from that level would critically reduce our 
capabilities in the very beginning part of a war fight to 
receive forces that come in to reinforce, to help with the NEO 
[noncombatant evacuation operation] in order to be able to get 
our family members and U.S. citizens out there; to reduce--on 
the Air Force side would reduce our capability to rapidly 
strike into North Korea with the long-range artillery; 28,500 
is the right amount for the war plans that we have in place now 
and will have for the next several years.
    Mr. Coffman. Do you think that after 2015 when the South 
Koreans take operational control that the numbers should be 
reexamined?
    General Sharp. Sir, I think 28,500, looking at the war 
plans and how we are currently working through what they will 
look like after OPCON transition in 2015, the current number, 
28,500, I believe is the right number to maintain for that war 
fight and in the future.
    Again, the main thing that changes after OPCON transition 
is the leadership of the war fight. How we physically maneuver 
forces on the ground, who has the responsibility for different 
aspects of the war fight, for the most part stays the same.
    So again, we always evaluate this when we go through 
different analyses of our war fights and what the capability of 
the Republic of Korea is and what the threat from North Korea 
is.
    But from what I see right now, 28,500 is the right number 
for after OPCON transition also.
    Mr. Franks [presiding]. Mr. Garamendi is now recognized for 
5 minutes.
    Mr. Garamendi. Thank you very much, Admiral, to you, your 
men and women in your command, the work that you are doing in 
Japan dealing with the disaster there is extremely important. 
And, I think, really represents the very best of America. We 
thank you for that and thank all of them that are involved, 
some in a very dangerous situation.
    In response to a question maybe 15, 20 minutes ago, you 
had, and this may be the end of the queries, you mentioned 
communications with China and the military-to-military 
communications.
    Could you expand on that, the current status, your goals, 
how you see that developing?
    I agree with what you said very briefly before. It is 
extremely important; if you could cover that, please.
    Admiral Willard. Yes, thank you.
    Well, first of all, the commitment that we have and what we 
believe is the right future between the United States Armed 
Forces and the Chinese military is that we achieve, maintain 
and sustain a continuous military-to-military dialogue at the 
highest levels and some level of exchange and contributing to 
trust-building at other levels within our respective 
militaries.
    We have done, or have been very challenged in seeing that 
achieved.
    As you know, our mil-to-mil relationship with the Chinese 
has been characterized by fits and starts often due to 
disagreements between our two nations.
    We went through nearly a year of hiatus last year as a 
consequence of the last round of Taiwan arms sales, though we 
have been episodically selling defense articles and services to 
Taiwan for the last 30 years.
    So, China gets a vote in this. But we have attempted to 
convince them and discuss with them the importance of these 
two, very consequential militaries in the Western Pacific 
having the ability to discuss both areas in which we converge 
and areas of difference.
    I think that is the most important thing. We are currently 
back in a mil-to-mil sequence, but one that is relatively 
modest.
    I would offer, you know, the promises that, ultimately, the 
mil-to-mil relationship will be one that we have envisioned, 
you know, probably not entirely achievable.
    But, rather, some modicum of that right now would satisfy 
me that we are headed in the right direction.
    Mr. Garamendi. Okay. At any time, have we cut off the 
discussions?
    Admiral Willard. With the Chinese?
    Mr. Garamendi. Yes.
    Admiral Willard. Not in my experience, no.
    Mr. Garamendi. Thank you. One further question; the flow of 
oil seems to be a lot about all that we are talking here.
    Could you briefly discuss the Chinese view of the flow of 
oil from the Middle East to China and the role of the American 
Navy in that?
    Admiral Willard. Well, the United States Navy for more than 
a century has been providing security on the high seas and in 
the Asia-Pacific region both in the Western Pacific and Indian 
Ocean regions.
    Given the importance of Middle East oil to our allies and 
friends in the regions, ourselves and to include the Chinese, 
the United States has been providing safety on those sea lines 
of communication ranging back to tanker wars, if you will 
recall in the 1980s, where we were protecting the tanker ships 
exiting the Persian Gulf.
    The Chinese have been insatiable consumers of many 
resources, oil included. They regard the flow of oil as a 
national security concern, I think, from the Middle East.
    They have built both port structures, and they are 
establishing pipelines into Western China from locations on the 
Indian Ocean side in order to relieve the amount of strain on 
the sea lines of communication themselves.
    Nonetheless, choke points like the Strait of Malacca remain 
crucial. I think we all regard its security and safety as 
critically important.
    The nations that guard the security of the strait is very 
important to both us as well as to the Chinese.
    Mr. Garamendi. Finally, in 10 seconds, Mr. Chairman, I want 
to commend the Navy for its enthusiasm to look for other 
sources of fuel besides carbon oil, in other words, advanced 
biofuels.
    Admiral Willard. We hope to have a carrier strike group 
operating on advanced biofuels very shortly.
    Mr. Garamendi. You are to be commended.
    Thank you, Mr. Chairman.
    Mr. Franks. I am going to go ahead and ask my questions 
now, gentlemen.
    Thank you for both being here. I appreciate your service so 
very much.
    This is a sort of a follow-on related to a couple of 
earlier questions, Mr. Bartlett's question, Ms. Bordallo's 
question. Mr. Bartlett pointed out the incontrovertible reality 
that when a nation becomes a nuclear-armed nation that our 
diplomacy is radically altered.
    To that point, it occurs to me that we need to be very 
aware of how much North Korea is cooperating with other nations 
or potentially passing on nuclear technology to other rogue 
nations like Iran.
    We know there has been a lot of discussion between the two 
countries and work between the two countries related to their 
missile technology.
    It appears that Iran is now beyond even North Korea's 
capability in missile technology.
    So tell me, if you can, what our ability and our actions 
are related to preventing North Korea from sharing nuclear 
technology with other rogue nations.
    I will let you both take a look at it.
    General Sharp. Sir, as you know, there are several Security 
Council resolutions which require other nations to, on the 
proliferation side, to work very hard to make sure North Korea 
is not proliferating any nuclear missile technology.
    We have seen in the past--you know, we know the assistance 
that North Korea gave to Syria several years ago for the 
nuclear plant that they were building there.
    We have seen on some of the missile proliferation things 
where countries have stopped some shipments recently because of 
proliferation.
    The specific nuclear exchanges and information flow between 
North Korea and Iran I think we would have to take into a 
classified session to go into depth on that, sir.
    Mr. Franks. But we are working on it is what you are 
saying. Yes.
    Well, let me just shift gears, then, because I don't want 
to take us in the wrong direction.
    There were recent reports that North Korea is nearing the 
completion of an EMP [electromagnetic pulse] type of weapon. I 
understand that they are using a lot of old Soviet-style 
jamming capabilities to jam the South Korean GPS [Global 
Positioning System] and that South Korea believes that that is 
a wake-up call that this may be a tactic that North Korea will 
use more and more in terms of their jamming capabilities.
    If they are already working on an EMP weapon, do you have 
any indication that they might be working on some sort an 
intentional mechanical electromagnetic interference, some type 
of device based EMP jamming capability?
    And what about this EMP weapon that they talk about, an EMP 
bomb as it were? I am told that it is made to detonate at 25 
miles up, which is a conflict in my mind since most effective 
EMP weapons would be higher and the 25 miles would be within 
the atmosphere.
    It occurs to me that that would be a suppression of the EMP 
emission itself.
    Do you know where they are on their EMP capability in terms 
of weaponizing in either device-based or any sort of a nuclear 
explosive--or a nuclear warhead-based EMP?
    General Sharp. Sir, unfortunately, on the EMP side, we we 
are going to need to take that into a classified session.
    I can say on the GPS jamming side we have seen North 
Korea's use of GPS jammers up on the Northwest part of the 
Republic of Korea. The Republic of Korea government has called 
on North Korea to stop that jamming.
    Mr. Franks. Do you think it portends a widening of a 
particular tactic? Do you think they intend to develop their 
jamming capability, either EMP or radiofrequency or otherwise?
    General Sharp. Sir, I think North Korea has continued to 
develop a lot of different capabilities in the asymmetric 
threat capability way.
    I think it is one of the ways, it is where they have been 
putting their money between ballistic missile capability, 
nuclear and special operating forces to asymmetrically try to 
force change in South Korea to send messages to other 
audiences, the United States, in particular, that they are a 
nation that cannot be challenged.
    I think they look for many different ways to do that.
    Mr. Franks. Well, last question, gentlemen; I always try to 
ask the question; what is the most important, the most 
significant challenge that we face that needs to be addressed 
from North Korea?
    If you can do it at the 50,000-foot level where it doesn't 
enter into any sort of classified concern and maybe let you 
both take a shot at it.
    Admiral Willard, sir, I will start with you on this one.
    Admiral Willard. Yes, I think the most significant is 
nuclearization and the development of ballistic missile 
delivery systems that have now reached the point of being 
intercontinental.
    So, we are obviously concerned by that development. A de-
nuclearized North Korea is both the commitment that the 
international community has made and an imperative, I think, 
given the nature of this regime.
    General Sharp. I agree with Admiral Willard. I will say it 
in a slightly different way.
    The status quo is no longer acceptable. The status quo, I 
think, that the world sometimes sees in North Korea and says, 
``let's just return to the status quo,'' is a status quo that 
killed many Republic of Korea citizens and service members last 
year.
    It is a status quo that has launched ballistic missiles in 
contravention with U.N. Security Council resolutions. It is a 
status quo that has continued to develop nuclear weapons.
    I think at the 50,000-foot level for the world and all of 
the leadership of the world to understand status quo is no 
longer acceptable because where it is heading is not acceptable 
to the world.
    To force change in North Korea is the number one challenge 
that we and the world have for the future.
    Mr. Franks. Well, General, I don't know if it impresses 
you, but I agree with you. Thank you, sir.
    Thank you both.
    Mr. Runyan is recognized for 5 minutes.
    Mr. Runyan. Thank you, Mr. Chairman.
    Admiral Willard, General Sharp, thank you for your service 
to this country. Thanks for being here today.
    Admiral, I just wanted to thank you for your response to 
Mr. Turner's question earlier about the Aegis missile defense 
system.
    That is actually manufactured in my backyard, and I am sure 
those men and women that work to create that system and 
maintain it would appreciate those kind words.
    But as far as you were talking earlier, and we were talking 
about terrorism threats around the world.
    You were talking how you were complimenting the Philippines 
for their active duty and their preparedness for it.
    You know, as far as your command engaging with other 
international partners in Southeast Asia, do you think you have 
the appropriate level of funding and/or the authorities to make 
sure that, you know, is upheld in that region?
    Admiral Willard. Are you referring to counterterrorism in 
particular?
    Mr. Runyan. Yes.
    Admiral Willard. Yes, thank you. It is a great question.
    In South Asia, to use a different location as an example, 
we are endeavoring to work with Nepal, Bangladesh, Sri Lanka, 
the Maldives and the nation of India to contain Lashkar-e 
Tayyiba, a Pakistani-based extremist organization that is 
already established in South Asia and was responsible for the 
attack in Mumbai.
    In order to accomplish that, we have been working very 
closely with the Office of the Secretary of Defense in ensuring 
that we have adequate resources, including authorities to be 
able to accomplish that mission.
    To date, in the way that support to the Armed Forces of the 
Philippines, Operation Enduring Freedom Philippines was 
developed, we have had the authorities commensurate with the 
mission that we were on.
    As we attempt to build capacities in other nations, it is 
important that we continue to identify shortfalls both in 
authorities and shortfalls in resources to be able to build the 
capacities in these partner nations such that they can become 
increasingly self-sufficient in dealing with the extremist 
organizations that are present there.
    So, that is currently our focus in Bangladesh and Nepal 
and, to a lesser extent, Sri Lanka and the Maldives right now.
    We are operating within authorities that are adequate, I 
would offer. And we are constantly seeking increased 
authorities to give us more latitude in order to be less 
episodic and more continuous in our efforts to build the 
capacities with, through, and by these partner nations.
    Mr. Runyan. To what extent have relations improved between 
China and Taiwan and its impact on the strait?
    Admiral Willard. I think the, you know, the evolution 
throughout the Ma administration with regard to Taiwan-mainland 
China relations, has been one of constant improvement. I mean, 
we have been encouraged by the relationships that have existed.
    I would offer that there is an election on Taiwan scheduled 
for 2012. And that is worth watching over, given the fact that 
this administration will soon be, you know, coming to an end 
and a reelection process will then be unfolding.
    Mr. Runyan. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Franks. Thank you, gentlemen, and I yield to Mr. 
Conaway for 5 minutes.
    Mr. Conaway. Thank you, gentlemen.
    Obviously, I am the only thing that stands between you and 
getting out of here.
    Admiral Willard, this doesn't fall under your 
responsibility, but the NDAA [National Defense Authorization 
Act] requires an annual assessment of Chinese military 
capabilities, strategies and intentions due March 1st of each 
year, still not here, as of the 6th of April.
    Your command, I suspect, would have a chance to look at it 
and have some influence on that. Have you had a chance to look 
at that this year's version?
    Admiral Willard. You are referring to the NDAA?
    Mr. Conaway. Well, the NDAA's requirement that the OSD 
provide us, the committee, with a report on China's military 
capacities, locations and those kinds of things that is due 
March 1st of each year----
    Admiral Willard. Yes, sir. I would offer that we have been 
in continuous dialogue with the Office of the Secretary of 
Defense on all issues pertaining to China and China's military.
    Mr. Conaway. Well, I understand. But, particularly, with 
the report itself, apparently it hasn't risen to your level in 
terms of----
    Admiral Willard. It has not risen to my personal level.
    Mr. Conaway. Is it something that you and your team used, 
last year's report? I mean, do you use that data or that 
information in the report for anything?
    Admiral Willard. Certainly. We definitely consume it and 
add it to the portfolio of China knowledge that we will then 
carry on with for the remainder of the year.
    Mr. Conaway. Okay, well, obviously, the NDAA and other 
pieces of legislation require this in different reports.
    It means someone has to do it and in this age of trying to 
cut costs we are looking for those that have a meaningful 
impact to the way you run your business, but then also give us 
an insight into how you run your business and how it is done 
and how that--so we do the oversight.
    Admiral Willard. Understand.
    Mr. Conaway. So if you wouldn't mind, next time you bump 
into Secretary Mabus, just say, ``Hey, by the way, the 
committee is asking about that report,'' one more time because 
we think it is reported.
    If you look through the list of things that we ask to be 
assessed, it would appear to be the exact same things that you 
would need to think about day in and day out as to how you run 
PACOM.
    General Sharp, good to see you again. I went over there one 
time with former Chairman Skelton. It was a great trip.
    As you are coming towards the command-sponsored tours 
increase in Korea, are you concerned at all about the 
incidences on the economy where, you know, people do stupid 
stuff from time to time, not necessarily the things that 
happened in Okinawa that helped drive some of the changes 
there?
    Have you had enough experience now to know that our kids 
and their kids can get along and that this doesn't become sort 
of a problem with the Koreans?
    General Sharp. Sir, I am very satisfied. We watch, of 
course, our incident rates very, very closely as we have more 
service members and family members over there.
    Korea is an extremely safe place to live. It is a great 
place for our service members and their families to be there 
because of the love that the Korean people have and the respect 
that they have for U.S. forces there.
    There was a recent poll that just came out from the State 
Department that said, when asked to the people of the Republic 
of Korea, ``What is the importance of U.S. forces on the 
peninsula,'' over 87% said, ``Important,'' or, ``Very 
important.''
    So the incidents, there is always one or two, we do take 
the appropriate action to be able to take care there. But I am 
very proud of our service members and their families.
    They understand they are ambassadors of the United States 
to the Republic of Korea. They are living up to that 
responsibility.
    Mr. Conaway. That is good to hear because we do want to be 
good guests, even though we are there to help them and protect 
them from a lot of bad stuff.
    So, gentlemen, thank you for your service. Thanks for being 
here this morning.
    I will yield back.
    General Sharp. Thank you.
    Mr. Franks. Well thank you, Mr. Conaway.
    As it happens, he has left an extra minute. Therefore, Mr. 
Larsen here has a final question.
    Thank you, sir.
    Mr. Larsen. Thank you, Mr. Chairman.
    Thank you, Mr. Conaway.
    Admiral Willard, last year, I was out at PACOM and visited 
with the Pacific Fleet and Army. I think I met with the Marines 
and Air Force just talking about building partner capacity 
projects. I think the assessment was that things were going 
very well.
    But the question I have for you is how you think the dollar 
flow works. Does it work well enough? Do they have the right 
authorities to use relative to the things that we have done 
here developing 1206 and 1208 in addition to the other grab bag 
of tools that exist in the Federal budget for you all to do 
this effort?
    Can you give me an assessment about that? Not about how 
well the project is going, but on how the budgets work and if 
you have the authorities?
    Or should it be fewer barriers between these accounts? Does 
the flexibility help or not help? Can you talk about that a 
little bit?
    Admiral Willard. For the past several years, we have been, 
I think, all pushing to streamline these instruments that allow 
us to work with our partners throughout the world.
    I say we. Collectively, all the combatant commanders, I 
think, have been very interested in having ready access to the 
tools that we have come to rely on and that enable that work to 
occur, whether that is 1206 funding, IMET [International 
Military Education & Training], foreign military financing 
[FMF], foreign military sales [FMS].
    I mean, these are items that are crucial with regard to the 
relations that we have with the many partners throughout the 
Asia-Pacific; 36 nations, 34 of which have militaries or 
security forces that we are working alongside.
    So the less the impediments and difficulties with regard to 
administering to these instruments, the better.
    Mr. Larsen. Yes. As a principle, that is great.
    Any particular problems that you or your folks have faced?
    Admiral Willard. I guess I would offer that coming from the 
customer base----
    Mr. Larsen. Right.
    Admiral Willard [continuing]. At times, the inability of 
FMS to be as responsive as it needs to be is probably the 
biggest criticism that we receive.
    There are many, many requests to be educated in and work 
more closely, be trained inside the United States. So, for 
those reasons, our IMET funding is crucial.
    But, at the end of the day, I think delays, and complexity 
of process with regard to the exchange of materials with our 
partners, is the one most serious complaint that we hear.
    Mr. Larsen. All right. Great, great.
    Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Franks. Gentlemen, thank you very much for coming to 
this committee. We have no way to express to you our gratitude.
    We do our best, but we know that you are the ones that 
carry the load of freedom on your back. The Nation owes you 
beyond any ability it might articulate.
    Thank you very much.
    Admiral Willard. Thank you, Chairman.
    Mr. Franks. We are adjourned.
    [Whereupon, at 12:09 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             April 6, 2011

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 6, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5809.001
    
    [GRAPHIC] [TIFF OMITTED] T5809.002
    
    [GRAPHIC] [TIFF OMITTED] T5809.003
    
    [GRAPHIC] [TIFF OMITTED] T5809.004
    
    [GRAPHIC] [TIFF OMITTED] T5809.005
    
    [GRAPHIC] [TIFF OMITTED] T5809.006
    
    [GRAPHIC] [TIFF OMITTED] T5809.007
    
    [GRAPHIC] [TIFF OMITTED] T5809.008
    
    [GRAPHIC] [TIFF OMITTED] T5809.009
    
    [GRAPHIC] [TIFF OMITTED] T5809.010
    
    [GRAPHIC] [TIFF OMITTED] T5809.011
    
    [GRAPHIC] [TIFF OMITTED] T5809.012
    
    [GRAPHIC] [TIFF OMITTED] T5809.013
    
    [GRAPHIC] [TIFF OMITTED] T5809.014
    
    [GRAPHIC] [TIFF OMITTED] T5809.015
    
    [GRAPHIC] [TIFF OMITTED] T5809.016
    
    [GRAPHIC] [TIFF OMITTED] T5809.017
    
    [GRAPHIC] [TIFF OMITTED] T5809.018
    
    [GRAPHIC] [TIFF OMITTED] T5809.019
    
    [GRAPHIC] [TIFF OMITTED] T5809.020
    
    [GRAPHIC] [TIFF OMITTED] T5809.021
    
    [GRAPHIC] [TIFF OMITTED] T5809.022
    
    [GRAPHIC] [TIFF OMITTED] T5809.023
    
    [GRAPHIC] [TIFF OMITTED] T5809.024
    
    [GRAPHIC] [TIFF OMITTED] T5809.025
    
    [GRAPHIC] [TIFF OMITTED] T5809.026
    
    [GRAPHIC] [TIFF OMITTED] T5809.027
    
    [GRAPHIC] [TIFF OMITTED] T5809.028
    
    [GRAPHIC] [TIFF OMITTED] T5809.029
    
    [GRAPHIC] [TIFF OMITTED] T5809.030
    
    [GRAPHIC] [TIFF OMITTED] T5809.031
    
    [GRAPHIC] [TIFF OMITTED] T5809.032
    
    [GRAPHIC] [TIFF OMITTED] T5809.033
    
    [GRAPHIC] [TIFF OMITTED] T5809.034
    
    [GRAPHIC] [TIFF OMITTED] T5809.035
    
    [GRAPHIC] [TIFF OMITTED] T5809.036
    
    [GRAPHIC] [TIFF OMITTED] T5809.037
    
    [GRAPHIC] [TIFF OMITTED] T5809.038
    
    [GRAPHIC] [TIFF OMITTED] T5809.039
    
    [GRAPHIC] [TIFF OMITTED] T5809.040
    
    [GRAPHIC] [TIFF OMITTED] T5809.041
    
    [GRAPHIC] [TIFF OMITTED] T5809.042
    
    [GRAPHIC] [TIFF OMITTED] T5809.043
    
    [GRAPHIC] [TIFF OMITTED] T5809.044
    
    [GRAPHIC] [TIFF OMITTED] T5809.045
    
    [GRAPHIC] [TIFF OMITTED] T5809.046
    
    [GRAPHIC] [TIFF OMITTED] T5809.047
    
    [GRAPHIC] [TIFF OMITTED] T5809.048
    
    [GRAPHIC] [TIFF OMITTED] T5809.049
    
    [GRAPHIC] [TIFF OMITTED] T5809.050
    
    [GRAPHIC] [TIFF OMITTED] T5809.051
    
    [GRAPHIC] [TIFF OMITTED] T5809.052
    
    [GRAPHIC] [TIFF OMITTED] T5809.053
    
    [GRAPHIC] [TIFF OMITTED] T5809.054
    
    [GRAPHIC] [TIFF OMITTED] T5809.055
    
    [GRAPHIC] [TIFF OMITTED] T5809.056
    
    [GRAPHIC] [TIFF OMITTED] T5809.057
    
    [GRAPHIC] [TIFF OMITTED] T5809.058
    
    [GRAPHIC] [TIFF OMITTED] T5809.059
    
    [GRAPHIC] [TIFF OMITTED] T5809.060
    
    [GRAPHIC] [TIFF OMITTED] T5809.061
    
    [GRAPHIC] [TIFF OMITTED] T5809.062
    
    [GRAPHIC] [TIFF OMITTED] T5809.063
    
    [GRAPHIC] [TIFF OMITTED] T5809.064
    
    [GRAPHIC] [TIFF OMITTED] T5809.065
    
    [GRAPHIC] [TIFF OMITTED] T5809.066
    
    [GRAPHIC] [TIFF OMITTED] T5809.067
    
    [GRAPHIC] [TIFF OMITTED] T5809.068
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 6, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. The Chinese have an extensive conventional missile 
capacity and range to strike many of our existing bases. a. How do you 
assess the adequacy of the U.S. military's capacity to withstand a 
Chinese air and missile assault on regional bases? b. What steps are 
being pursued to further strengthen regional bases' capacity to survive 
such an assault and continue or resume operation? c. How do our 
existing basing arrangements in South Korea, Japan and Guam serve to 
impede the growing Chinese extra-territorial ambitions?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Mr. Forbes. How does PACOM assess the adequacy of resources 
available to Department of Defense programs that seek to defend 
forward-deployed U.S. bases to include theater missile defense and 
early warning systems, hardened structures and hangers, air defense 
systems, and runway repair kits?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Mr. Forbes. Last week, China released its defense white paper. What 
new opportunities or concerns do you have as a result of this latest 
strategy publication?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Mr. Forbes. What are the implications of China's military 
modernization for PACOM's posture?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.].
    Mr. Forbes. What are the perceptions of regional allies with regard 
to the United States' global leadership and effectiveness as a 
deterrent against regional aggression?
    Admiral Willard. With five of our nation's seven mutual defense 
treaties in the Asia-Pacific, we continue to work with our allies--
Australia, Japan, Republic of Korea, Republic of the Philippines and 
Thailand--to strengthen and leverage our relationships to enhance the 
security within the region.
    Australia. Australia remains a steadfast ally who works tirelessly 
to enhance global and regional security and provide institutional 
assistance throughout the Pacific. Australia continues to lead the 
International Stabilization Force in Timor-Leste and the Regional 
Assistance Mission to the Solomon Islands. Their contributions to 
global security are evident by the recently increased force presence in 
Afghanistan. As the largest non-NATO force provider, Australia has 
committed to contribute to our effort to stabilize Afghanistan.
    Australia emphasizes advancing interoperability and enhanced 
defense cooperation with the U.S. through well-coordinated acquisition 
and training programs. TALISMAN SABER 2009 (a biennial and bilateral 
exercise) saw unprecedented participation focusing on policies, 
tactics, hardware, logistics, and infrastructure. We are also 
collaborating to enhance our cooperation in Intelligence, Surveillance, 
and Reconnaissance (ISR) and Humanitarian Assistance and Disaster 
Relief (HADR) efforts.
    Japan. Our alliance with Japan remains the cornerstone of our 
strategy in the Asia-Pacific region and despite the recent rhetoric, it 
remains strong. The new political environment provides us an excellent 
opportunity to recognize the region's achievements enabled through the 
security provided by our Alliance. Japan remains a reliable partner in 
maintaining regional and global stability. In the spring and early 
summer of 2009, Japan deployed two JMSDF ships and two patrol aircraft 
to the Gulf of Aden region for counter-piracy operations. Although 
their Indian Ocean-based OEF refueling mission was recently ended, 
Japan remains engaged in the region by providing civil and financial 
support for reconstruction and humanitarian efforts in Afghanistan and 
Pakistan for the next foreseeable future.
    Japan contributes over $4 billion in Host Nation Support (HNS) 
annually. Although the Japanese defense budget has decreased each year 
since 2002, the Japan Self Defense Forces continue to interact 
bilaterally with the U.S., and trilaterally with the U.S. and our 
allies, such as the Republic of Korea and Australia. Last year 
witnessed the completion of several successful milestones in our 
bilateral relationship, including the completion of a year-long study 
of contingency command and control relationships and the Ballistic 
Missile Defense (BMD) testing of a third Japan Maritime Self Defense 
Force Aegis destroyer.
    Republic of Korea (ROK). The U.S.-ROK alliance remains strong and 
critical to our regional strategy in Northeast Asia. General Sharp and 
I are aligned in our efforts to do what is right for the United States 
and the ROK as this alliance undergoes a major transformation.
    The transformation of the U.S.-ROK alliance will also help ROK 
better meet security challenges off the peninsula. The ROK maintains a 
warship in the Gulf of Aden in support of counter-piracy and maritime 
security operations, and has provided direct assistance to Operation 
Enduring Freedom. Of particular interest is the development of 
trilateral security cooperation between the U.S., ROK, and Japan. 
Although policy issues currently prevent us from realizing its full 
potential, the shared values, financial resources, logistical 
capability, and the planning ability to address complex contingencies 
throughout the region make this a goal worthy of pursuing.
    Republic of the Philippines (RP). The RP continues to be a key 
contributor in overseas contingency operations while simultaneously 
conducting a force-wide defense reform, transforming internal security 
operations, and developing a maritime security capability. These 
efforts support important U.S. regional initiatives and contribute to a 
stronger Philippine government capable of assuming a greater role in 
providing regional security.
    In close partnership with the Armed Forces of the Philippines 
(AFP), U.S. Pacific Command continues to support Philippine Defense 
Reform (PDR). Through an approved Defense Transformation program, the 
AFP, in accordance with its defense planning guidance, will manage 
those portions of PDR with end states beyond 2011 and provide a 
framework for the development of the programs necessary to transition 
from internal security operations to territorial defense by 2016.
    Thailand. Thailand remains a critical ally and engagement partner. 
We appreciate Thailand's important global security contributions in the 
overseas contingency operations, counter-narcotics efforts, 
humanitarian assistance and peacekeeping operations, such as their 
upcoming deployment to Sudan. Co-hosted with Thailand, exercise COBRA 
GOLD remains the premier U.S. Pacific Command multilateral exercise 
with participants and observers from 26 countries.
    The declining health of Thailand's King Bhumibol has elevated the 
issue of royal succession. The King, currently the world's longest 
reigning monarch (62 years), is beloved by the Thais. The eventual 
leadership succession, which will be a significant event in Thailand's 
history, has the potential to have a negative effect on the political 
environment and pose serious challenges for the Thai political and 
military leadership. This ally and partner is a key contributor to the 
regional security environment and will need our support in the years to 
come.
    Mr. Forbes. How could potential developments in the U.S.-India 
security relationship provide for greater stability on the sub-
continent and within the broader PACOM area of responsibility?
    Admiral Willard. The United States and India are already in the 
process of developing our security relationship to address common 
threats in the maritime domain with the ultimate goal of extending this 
cooperation into other realms of mutual and global interest such as 
global transportation networks, space, and cyberspace. Providing for 
the security of these ``global commons'' will allow anyone and any 
country that uses them a better opportunity to pursue and achieve 
economic development that can foster an improved quality of life and 
better governance. A security relationship must also address the 
threats to stability from violent extremist organizations and other 
transnational threats. Economic development and responsible governance 
provides the foundation for greater stability on the sub-continent and 
within the broader PACOM area of responsibility and provides the 
bastion from which to successfully interdict existing threats to this 
stability.
    The United States and India share the need for a secure maritime 
domain to transport the raw materials and finished manufactured goods 
that form the basis of our thriving market economies. The Indians have 
begun to recognize the importance that maritime forces play in ensuring 
freedom of navigation and protection of commerce and are now investing 
more to develop these capabilities. The United States, primarily 
through the United States Navy, has been promoting the concept of 
global maritime partnerships to share the burden of assuring maritime 
security along the vast sea lines of communication--essentially each 
nation contributing a small piece that when taken collectively becomes 
a potent stabilizing force. To this end, India has taken a more 
proactive role in policing the Eastern Arabian Sea and working in 
concert with United States Naval forces to detect, deter, and interdict 
pirates operating out of Somalia. We are sharing information and 
assisting the Indians in developing the tactics, techniques, and 
procedures to better accomplish this mission. As a result of these 
efforts, the Indian Navy has effectively halted the line of advance of 
pirate incidents emanating out of Somalia some 400 nm from their 
shores. This partnership and the ensuing stability it provides to the 
sea lines of communication in the Indian Ocean will directly benefit 
the Republic of the Maldives and allow them to focus limited resources 
to develop their tourist economy and for Sri Lanka to devote resources 
to rebuild maritime infrastructure following decades of civil war. 
Initial efforts to expand cooperation between the United States Coast 
Guard and the Indian Coast Guard are underway to improve maritime 
domain awareness along the Indian coastline in order to close off a 
potential line of attack from terrorists that operate out of the tribal 
areas in Pakistan bordering Afghanistan. This line of attack was used 
by Lashkar-e-Tayyiba to enter India and carry out the attacks in Mumbai 
in November 2008. Another successful terrorist attack emanating from 
Pakistan would have serious and far reaching destabilizing effect on 
the region to include the potential of full scale war between two 
nuclear armed antagonists. In fact, a more robust, whole of government 
approach to counterterrorism cooperation is needed. The Department of 
Defense is doing its part through PACOM by assisting U.S. interagency 
partners to engage with India's counterterrorism forces to address 
security concerns that are common to most, if not all, South Asian 
countries.
    This assistance is not confined to counterterrorism but also 
includes humanitarian assistance and disaster relief preparedness. 
South Asia is the target of significant natural disasters--tsunamis, 
earthquakes, flooding, droughts, and tropical cyclones. Scientists 
assess that the frequency and severity of these natural disasters will 
increase due to the effects of global climate change and the history of 
these events over the past three decades bears this out. Cooperation 
between the United States and India to organize, train, and stockpile 
relief supplies for response to a natural disaster anywhere in the 
region can mitigate the impact of these disasters which can overwhelm 
an individual country's resources and lead to political unrest and 
violence.
    India's economic rise over the past 20 years has put her in a 
position to be the benefactor for the other nations in South Asia. 
However historical animosities and mutual distrust are significant 
impediments to regional cooperation. A United States-India security 
relationship has the potential to break down these impediments and 
promote regional cooperation to overcome common security threats, both 
man-made and natural, and provide for greater stability that will have 
positive impacts within the region and globally.
    The following are some examples of how India could increase its 
role in enhancing regional and global stability by partnering with the 
U.S.
    1. India establishes linkages between its counter-piracy efforts 
and the combined operations already underway in the Indian Ocean Region 
(Combined Task Force 151, U.S. 5th Fleet's Shared Awareness and 
Deconfliction [SHADE] meetings, etc.), resulting in increased 
deterrence to piracy in the Indian Ocean Region. If India continues its 
aggressive stance with respect to piracy in the western Indian Ocean 
and chooses to cooperate more deeply with existing multi-national 
efforts, the cumulative effect of counter-piracy efforts in the region 
could be enhanced.
    2. India deepens and regularizes its information sharing efforts 
with the U.S. on counterterrorism and other items of mutual interest. 
This could build greater confidence between law enforcement and 
military intelligence counterparts in both governments and mitigate 
risks and repercussions of possible future extremist attacks on India.
    3. India purchases an increasing number and variety of weapons 
systems from the U.S. to meet its military requirements. Although India 
is likely to continue to seek diversity in its arms acquisitions, as 
evidenced by the recent non-selection of U.S. tenders in their Medium 
Multi-Role Combat Aircraft competition, successful U.S. weapons system 
sales and associate technology transfers (C-130J, P-8I, C-17, etc.) 
will significantly deepen the U.S.-India security partnership. The 
long-term effect of the military-military links established through 
these programs will be to strengthen India's defense capabilities and 
gradually increase alignment of defense and security policies and 
practices, making India a more effective security partner and more 
capable provider of security to the region.
    Mr. Forbes. How important is the current SSGN platform to PACOM 
operations? a. Does PACOM have any concerns with the Navy's decision to 
not replace the SSGN after the de-commissioning of the current Ohio-
class SSGNs? b. In addition to significant cruise missile strike 
capabilities, the SSGN platform has provided COCOM commanders with a 
significant amount of time on station, due to the two crew arrangement, 
as well as a significant capacity for SOF missions and equipment and 
versatility for other vital projects. Has PACOM assessed, or consulted 
with the Navy in assessing, the number of Virginia class submarines 
that would be necessary to provide the equivalent capability of one 
Ohio class submarine to conduct vital missions in the PACOM AOR?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Mr. Forbes. Regarding the Navy and Air Force development of the 
AirSea battle concept: Has PACOM had significant input on its 
development? If yes, in what ways?
    Admiral Willard. US Pacific Command is familiar with the Air Sea 
Battle concept development, however, we have had little input on its 
development. I anticipate being provided an opportunity to recommend 
changes to it.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO

   Ms. Bordallo. Can you describe what impact a continuing resolution 
would have on the commencement of a PACOM-led EIS to address broader 
training issues in the Pacific? a. Also, can you describe what this 
proposed EIS will evaluate once it commences? b. How will PACOM ensure 
the document takes a broad look at training requirements and balances 
the needs of all services? c. Also, what are some of the key training 
challenges in the Pacific and do we currently have an acceptable level 
of risk for all our services' training in the Pacific?
    Admiral Willard. The continuing resolution did delay the 
solicitation and contract award to execute the Training in the Pacific 
EIS. However, with the recent approval of the FY11 budget, the 
solicitation for bids is expected to be released in mid-June with an 
estimated contract award in Aug 11.
    The EIS will evaluate options and alternatives to improve DoD's 
training capabilities and mitigate training gaps in the Pacific AOR. 
Although the primary proposed option is to develop new training ranges 
and increase capabilities at existing ranges in the Marianas Islands 
Range Complex (MIRC), other options will be developed and assessed as 
required by the National Environmental Policy Act (NEPA) to ensure a 
complete and justifiable EIS.
    The EIS will develop alternatives that meet requirements of all 
Service Components and especially develop training alternatives that 
can be utilized by multiple Services, such as combined use training 
ranges. While the level of risk related to current capabilities for DoD 
training in the Pacific is considered acceptable, it is prudent to 
explore additional training capabilities with this EIS to complement 
force posture realignment initiatives, such as the Marine relocation to 
Guam.
    Ms. Bordallo. I am very proud of the operational efforts that the 
men and women in uniform have been providing to support relief efforts 
in Japan. What else can we in Guam do to aid in the endeavors to get 
the Japanese on the road to recovery and to a new state or normalcy? I 
know we are hosting many men and women in uniform and their dependents 
but is there anything else we can do to support rebuilding our very 
close Japanese allies?
    Admiral Willard. Government to government provision of relief items 
is over. Overseas Humanitarian Disaster and Civic Aid Assistance 
funding ended with the conclusion of Operation TOMODACHI on May 31, 
2011. Although US Forces Japan/Joint Support Force-Japan continues to 
monitor and support such things as consequence management for the 
Fukushima reactors, the majority of direct support has concluded.
    The best way for the people of Guam to aid our Japanese allies is 
by making cash contributions to humanitarian organizations that are 
working in the affected areas. Information on identifying humanitarian 
organizations that are accepting cash donations for their efforts in 
Japan is available at www.usaid.gov, www.interaction.org or by calling 
the Center for International Disaster Information (CIDI) at 703-276-
1914.
    It is a common misperception among the public that all types of 
assistance are needed following a disaster. This often leads to 
spontaneous collections of unsolicited commodities and offers of 
volunteer services, which can impede relief efforts. Therefore, the 
U.S. Government encourages those who wish to help to make a cash 
donation to the humanitarian organization of their choice. Cash 
donations: allow disaster relief professionals to procure the exact 
commodities needed (often locally in the affected country); reduce the 
burden on resources that tend to be scarce in disaster settings (such 
as transportation routes, staff time, warehouse, space, etc.); can be 
transferred very quickly without transportation costs (which often 
outweigh the value of the donated commodities); support the economy of 
the disaster-stricken region; and ensure culturally, dietary, and 
environmentally appropriate assistance.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. When an Aegis BMD ship (3.6.1 configuration currently 
fielded) is operating in a missile defense mode, what percentage of its 
radar energy is supporting missile defense versus other missions?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Mr. Turner. What impact does that radar utilization have on the 
ship's ability to accomplish its other missions, including ship 
protection? Are there missions that the Aegis ship cannot support when 
it is in missile defense mode?
    Admiral Willard. The BMD computer program is designed to ``favor'' 
use of resources for BMD applications when operating in BMD Engage or 
Surveillance Modes and will use 100 percent of the resources if 
required. There are no Aegis Weapon System design provisions which 
allow, for example, ``setting aside'' a certain percentage of resources 
to support any particular AAW self defense mission. Since radar 
resources are often ``stretched thin'' during BMD search mission 
operations such as Strategic Cueing, any concurrent Anti-Air or Anti-
Surface missions will have to rely on ``non-SPY'' systems such as CIWS, 
the Gun Weapon System, or possibly NULKA. On the other hand, 
simulations have shown that it may be possible to conduct certain Anti-
Air Warfare engagements using a very small percentage of SPY resources.
    While there are scenarios where it is less than ideal and support 
both BMD and Anti-Warfare, the majority of the BMD CG and DDG missions 
can be conducted simultaneously and are dependent upon Joint Force 
availability and JFMCC stationing. The BMD ships are multi-mission and 
manned, trained and equipped to conduct the following missions in 
conjunction with one another:

    Command and Control
    Ballistic Missile Defense
     Anti-Air Warfare (to a lesser degree based upon above 
considerations)
    Anti-Surface Warfare
    Undersea Warfare
    Strike Warfare
    Naval Surface Fires Support
    Electronic Warfare \1\
---------------------------------------------------------------------------
    \1\ Aegis BMD 3.6.1 Capabilities and Limitations

    Mr. Turner. Discuss how operational considerations affect Navy 
deployment and force structure requirements. For example, for a single 
Aegis BMD ``shooter,'' how many additional ships are necessary to 
address the radar resource challenge?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Mr. Turner. When the next Aegis BMD ship upgrade is fully fielded 
(4.0.1 configuration), what percentage of the ship's radar energy would 
be supporting missile defense versus other missions?
    Admiral Willard. It depends on the situation. Aegis BMD ships are 
multi-mission capable ships which can perform the following missions: 
Limited Defense Operations (LDO)/Homeland Defense, regional missile 
defense (both organic and Launch on Remote), Measurement and Signal 
Intelligence (MASINT)/Non-Tactical Data Collection, Air Defense, Anti-
Surface Warfare, Anti-Submarine Warfare, Naval Gunfire Support, Strike 
Warfare, Maritime Interdiction/Security Operations, Information 
Operations, and Intelligence and Collection. The Joint Force Maritime 
Component Commander will allocate Aegis assets, to include Aegis BMD 
assets, to accomplish his highest priority missions. These may or may 
not include BMD. SPY-1D radar usage is always determined by mission 
requirements.
    The 4.0.1 configuration provides improved target discrimination and 
enhanced launch on remote tracking data. Coupled with the new SM-3 
Block IB missile, the Aegis 4.0.1 system will provide longer range 
engagements of more advanced threat missiles.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. HANABUSA

    Mrs. Hanabusa. Given the geographic coverage of PACOM, are five 
aircraft carriers sufficient for the objectives of PACOM?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Mrs. Hanabusa. What is the objective of the Strategic Alliance 2015 
plan?
    General Sharp. The Strategic Alliance 2015 plan synchronizes 
multiple U.S. and Republic of Korea (ROK) transformation efforts that 
are designed to build adaptive and flexible capabilities to deter 
aggression against the ROK and to defeat aggression should it occur. 
The plan's objective is to sustain and enhance the U.S.-ROK Alliance's 
combined defense posture and capabilities and to support the Alliance's 
future vision and bilateral defense priorities as stated in the 
Guidelines for U.S.-ROK Defense Cooperation. Execution of the Strategic 
Alliance 2015 plan ensures the effective synchronization of major 
elements of Alliance restructuring while maintaining a strong combined 
defense posture to deter or respond to the range of North Korean 
security challenges throughout the transition process. Key elements of 
the Strategic Alliance 2015 plan include: refining and improving 
combined defense plans; defining and developing the new organizational 
structures required for ROK lead of the war effort; implementing more 
realistic exercises based on the North Korean threat of today and 
tomorrow; preparing for the transition of wartime operational control 
to the ROK Joint Chiefs of Staff in December 2015; consolidating U.S. 
military forces in the ROK onto two enduring hubs under the Yongsan 
Relocation Plan and Land Partnership Plan; and force management. The 
goal of all initiatives under the Strategic Alliance 2015 construct is 
to build adaptive force capabilities that deter and defeat future 
provocations against the ROK and fight and win on the Korean Peninsula 
should deterrence fail. The Strategic Alliance 2015 plan as a whole 
synchronizes ongoing transformation efforts to ensure they are aligned 
and mutually supporting and better postures both nations to deter, 
counter, and defeat North Korean provocations and aggression.
    Mrs. Hanabusa. At page 33 of your testimony you point to 107 bases 
to be reduced to two, how does this meet the objectives of the 
Strategic Alliance 2015 Plan and/or the deterrence objective of the 
United States Military?
    General Sharp. The U.S. and Republic of Korea (ROK) governments 
agreed to consolidate and relocate American forces stationed in the ROK 
onto installations south of the capital city Seoul. Prior to the year 
2005, the Command had 107 installations in Korea. Once relocation is 
complete, the Command will utilize 49 sites, concentrated for the most 
part around two enduring hubs: a southwest hub and a southeast hub. The 
southwest hub is centered on Osan Air Base and U.S. Army Garrison 
Humphreys. It will be the future centerpiece of U.S. military force 
structure in Korea. The southeast hub will include installations 
located in the cities of Daegu, Chinhae, and Busan. This hub will serve 
as the logistics distribution center and storage location for wartime 
and contingency prepositioned stocks.
    The consolidation of forces onto two enduring hubs satisfies 
Strategic Alliance 2015 and Command deterrence objectives by improving 
warfighting capabilities in the following ways. First, the 2nd Infantry 
Division and future Korea Command will be collocated at U.S. Army 
Garrison Humphreys, improving coordination and planning between staffs 
of the two organizations. Similarly, relocating 2nd Infantry Division 
to U.S. Army Garrison Humphreys consolidates the Division's subordinate 
units at a single location, increasing direct face-to-face contact 
amongst unit personnel while reducing the physical span of control and 
infrastructure needed to support the Division. The unit is better 
postured to train and fight together.
    Consolidation at two enduring hubs also enhances command and 
control and coordination. In addition to strengthening relationships 
between operational staffs of the 2nd Infantry Division and a future 
Korea Command, 2nd Infantry Division is better positioned to affect 
initial liaison and coordination during reception, staging, and onward 
movement of deploying maneuver and sustainment brigades. Early liaison 
and coordination sets the conditions to more reliable and effective 
command and control during execution of later phases/stages of 
conflict. Positioning of the 2nd Infantry Division at U.S. Army 
Garrison Humphreys also improves tactical flexibility by posturing the 
division in a better tactical location for rapid commitment in support 
of either of the forward stationed ROK armies and corps. This position 
also shortens logistical lines during the initial phases of conflict 
that better postures the division for successful employment later.
    Consolidation also enhances the execution of noncombatant 
evacuation operations (NEO). By reducing the dispersion of 
transportation assets, movement times are cut. By separating U.S. 
forces from initial wartime threats such as North Korea's long-range 
artillery and its ground forces threatening Seoul, the vulnerability of 
these forces is reduced and their survivability enhanced. A 2nd 
Infantry Division located at U.S. Army Garrison Humphreys will be 
better able to integrate follow-on maneuver and sustainment brigades 
while not under the fire of North Korean long-range artillery. This 
factor supports the Division's preparation for combat activities. 
Finally, force consolidation enhances warfighting capabilities by 
improving soldier quality of life, realization of stationing 
efficiencies, optimizes use of land in Korea, and enhances force 
protection and survivability.
    Mrs. Hanabusa. Given the present complement of the Republic of 
Korea forces, can it assume the control of leading the military 
alliance on the Korean peninsula?
    General Sharp. By 1 December 2015, the ROK will be ready and 
capable of leading the U.S.-ROK Alliance in defense of the ROK in 
wartime. In December 2015 wartime operational control (OPCON) will be 
transitioned from the Combined Forces Command to the Republic of Korea 
(ROK) Joint Chiefs of Staff. Under OPCON transition, the U.S. and ROK 
will disestablish Combined Forces Command and stand up separate but 
complementary national commands consistent with the Mutual Defense 
Treaty that will focus on combined defense of the ROK. Once OPCON 
transition is completed, the ROK Joint Chiefs of Staff will become the 
supported--or lead--command, and the newly created U.S. Korea Command 
(KORCOM) will be the supporting command. The ROK Joint Chiefs of Staff 
will have full control of ROK military forces while the KORCOM 
commander will have control over U.S. forces.
    The ROK military is a highly professional and competent force and 
will be capable of leading the U.S.-ROK Alliance defense of the ROK in 
wartime. Numbering over 633,000 active duty personnel, it ranks as the 
world's 6th largest military in terms of personnel and is a modern, 
mobile network centric warfare capable force that fields an array of 
advanced weapon systems. The ROK military is led by a professional 
officer corps that currently exercises daily command of its forces. It 
has gained operational experience through recent deployments to places 
such as Iraq, Afghanistan, the Gulf of Aden, Lebanon, as well as 
participating in a host of United Nations peacekeeping and humanitarian 
assistance operations. Initiatives to enhance force capabilities, 
modernize weapon systems, and improve organizational structures and 
force management are being implemented as part of the ongoing ``307'' 
defense reform program.
    ROK military force capability is supplemented through the conduct 
of a tough and realistic exercise program. In addition to participating 
in the combined Ulchi Freedom Guardian, Key Resolve, and Foal Eagle 
exercises with the U.S., the ROK military also conducts annually the 
Taegeuk, Hoguk, and Hwarang exercises. These exercises derive 
requirements for joint force and unit structure development, improve 
interoperability between the military services, and practice inter-
agency coordination. Thus, by 2015 the ROK will be ready and capable of 
leading the U.S.-ROK Alliance defense of the ROK in wartime.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT

    Mr. Scott. What is the role of the U.S. Coast Guard within Pacific 
Command's area of responsibility?
    Admiral Willard. The U.S. Coast Guard executes its eleven statutory 
missions in the Pacific including: Search and Rescue; Marine Safety; 
Ports, Waterways and Coastal Security; Illegal Drug Interdiction; 
Undocumented Migrant Interdiction; Defense Readiness; Other Law 
Enforcement; Marine Environmental Protection; Living Marine Resources; 
Aids to Navigation; and Ice Operations.
    Furthermore, the U.S. Coast Guard supports the Pacific Command's 
Theater Campaign Plan by participating in Theater Security Cooperation 
and Capacity building activities with allies and partners in the 
Pacific Command's area of responsibility. Examples of such activities 
include: professional exchanges; mobile training teams; multi-lateral 
maritime surveillance operations; multi-lateral and bi-lateral 
exercises; humanitarian and civic assistance events, and bi-lateral 
ship rider operations with Pacific Island Nations. Most of the 
activities are conducted in conjunction with normal Coast Guard 
operations in the region. U.S. Coast Guard Theater Security Cooperation 
activities reach beyond normal military-to-military relations to a 
broader host nation maritime audience, including, but not limited to, 
law enforcement agencies, maritime administrations, and transport 
ministries. Additionally, the U.S. Coast Guard participates in the 
development of the Pacific Command's Joint Strategic Capabilities Plan 
directed contingency plan development, providing apportioned forces to 
support contingency plans.
    Finally, to meet Defense contingency planning and preparedness 
activities under its Defense Readiness mission, the U.S. Coast Guard 
provides Service-unique capabilities (e.g. ports, waterways, and coast 
security capabilities; maritime intercept capabilities) in support of 
Pacific Command's Operational Plans. U.S. Coast Guard planners support 
development of Operational Plans to employ, maintain, and sustain U.S. 
Coast Guard forces in support of homeland defense missions.
    Mr. Scott. What is the relationship between U.S. Pacific Command 
and the Mongolian Armed Forces?
    Admiral Willard. Mongolia is an enthusiastic U.S. partner that 
continues to support U.S. Northeast Asia regional objectives and 
coalition Afghanistan operations; however, Mongolia must balance 
engagement with the U.S. with their relationship with China and Russia. 
U.S. Pacific Command is committed to assisting Mongolian Armed Forces 
transform from a Soviet-era General Staff organization into a 
professional and competent ``Napoleonic'' or western styled Joint Staff 
structure. U.S. Pacific Command is assisting the Mongolian Armed Forces 
enhance their capability to fully participate in international peace 
support operations and humanitarian assistance/disaster relief efforts. 
The Mongolian Armed Forces (MAF) has contributed extensively to 
operations relative to its size and strength. Mongolia contributed over 
1300 troops and ten troop rotations to OPERATION IRAQI FREEDOM from 
July 2003 until September 2008 when the United Nations Security Council 
Resolution expired. The Mongolians were also early contributors to our 
coalition in Afghanistan for OPERATION ENDURING FREEDOM. The OEF 
support began in October 2003 with 21 members providing advanced 
artillery maintenance to the Afghan National Army. Recently, Mongolia 
committed to doubling the current troop strength in Afghanistan to 400 
troops. Mongolia also hosts the annual multinational peace operations 
exercise KHAAN QUEST, which provides training and promotes positive 
military-to-military relations with the U.S. and regional peace support 
partners. U.S. Pacific Command Components U.S. Army Pacific and U.S. 
Marines Forces Pacific rotate co-hosting KHAAN QUEST with the Mongolian 
Armed Forces. This annual training occurs at the Five Hills Training 
Center. KHAAN QUEST is designed to improve multinational responses, 
effectiveness, interoperability and unity of efforts for peace support 
operations. This training is provided to meet UN standards for peace 
support operations. U.S. Pacific Command participates in the Office of 
the Secretary of Defense for Policy, Asia Pacific Security Affairs-led 
Bilateral Consultative Council and the Executive Steering Committee 
meetings. These high level meetings underscore U.S. Pacific Command's 
commitment to the Mongolian Defense Reform. Commander, U.S. Pacific 
Command regularly meets the General Chief of Staff of the Mongolian 
Armed Forces for strategic dialogue and engagement.
    Mr. Scott. What is the role of the U.S. Coast Guard within U.S. 
Forces Korea?
    General Sharp. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. PALAZZO

    Mr. Palazzo. My district has seen its share of devastation due to 
natural disasters, most memorably Hurricane Katrina. Recently, we saw 
another example of the destructive power of Mother Nature as Japan was 
hit by a major earthquake followed by a devastating tsunami.
    Almost exactly one year ago, in your testimony before the Senate 
Armed Services Committee, you mentioned that ``In the Asia-Pacific, we 
respond to natural disasters about every 60 days.'' Following the 
recent devastation in Japan, could you comment on our military's 
readiness to respond to natural disasters in the Pacific at this point?
    Admiral Willard. In the wake of OPERATION TOMODACHI, USPACOM forces 
remain ready to provide Foreign Humanitarian Assistance (FHA) and 
Humanitarian Assistance/Disaster Relief (HADR) throughout the PACOM 
AOR. Operation TOMODACHI was unique due to both the scope and 
complexity of the three overlapping disasters, even more complex than 
the 2004-5 Southeast Asia Tsunami relief operation, Operation Unified 
Assistance. Unlike most other disasters, Operation Tomodachi involved 
the simultaneous execution of FHA, FCM, and Voluntary Authorized 
Departure (VAD) of American citizens in response to the combined 
effects of an 9.0 earthquake, catastrophic tsunami, and resultant 
nuclear disaster. Despite these challenges, PACOM forces responded 
quickly, adapting to the natural and man-made disaster while supporting 
our Japan ally.
    Although we do not organize and train for FHA/HADR, the inherent 
capabilities and capacity of expeditionary military forces allow them 
to adapt and respond quickly and effectively in support of the Host 
Nation. Our ability to broadly task across available assigned forces 
provided flexibility and in large part mitigated the impact normally 
associated with the conduct of an operation of this scope. The 
assignment of rotational forces ``tailored'' for rapid response ensures 
our continued ability to respond to disasters, as well as mitigate the 
strain on force readiness.
    Mr. Palazzo. Do you feel that this high rate of humanitarian 
missions, particularly in the Pacific, is hurting our ability to 
respond or plan for other, more traditional threats in the region?
    Admiral Willard. No. Participation in humanitarian missions are 
``as is'' missions and provide valuable opportunities to conduct ``real 
world'' rapid planning, execution of critical military skills, and 
theater engagement. These missions provide benefits that are 
complementary to the execution of more traditional military missions. 
FHA and HA/DR are missions performed frequently by PACOM forces, while 
preparing to respond to more ``traditional threats''. Although 
humanitarian missions place additional demands on our forces, our 
participation in humanitarian operations demonstrates to our Allies and 
Partners our commitment to the region and often create more receptive 
conditions for future engagements and relationships. The opportunity to 
respond to humanitarian mission in the AOR sends a strong message 
throughout the region, demonstrating our ability and willingness to 
respond rapidly across the AOR. Execution of humanitarian mission in 
addition to the execution of multiple scheduled conventional exercises 
contributes to our ability to rapidly execute where a conventional 
military response is required.
    Mr. Palazzo. Who pays for these humanitarian responses?
    Admiral Willard. Humanitarian Responses are paid for through USAID/
OFDA. They provide initial cost assessment through the Disaster 
Response Team (DART). Funding clearly outlines the support that will be 
provided by the PACOM and the tailored and scaled force vectored to the 
affected host nation.
    Mr. Palazzo. What Asia-Pacific countries concern you most at this 
point and where are we lacking to respond (equipment, technology, 
manpower, money) to realistic threats from potential hot spots in the 
region?
    Admiral Willard. Within Northeast Asia, North Korea has the most 
potential need for FHA/HADR arising from natural or manmade disasters. 
Disaster in this affected state would cause great concern because of 
ability to interact, visibility, and other concerns that naturally 
arise. Although disasters in China have occurred since 2009, The PRC 
remains reluctant to accept our offers of help, though we have provided 
mostly symbolic assistance in the past 2-3 years and typical requests 
are in the form of funding or spare parts for military hardware. Within 
Southeast Asia, we have seen significant improvement within the 
Philippines and their ability to respond to FHA over the past decade. 
Additional support is still required for Indonesia, but access is not 
always guaranteed, granted, or requested. As seen in 2007, Burma and 
associated relief is problematic. Lastly, within South Asia, current 
concern and planning is focused on Nepal due to its geographical 
isolation and recent predicative earthquake models that suggest 
potential 100-year earthquake on the scale of Haiti 2010. PACOM is 
assisting the Government of Nepal through our Embassy through planning 
to help mitigate potential disaster through leveraging regional 
neighbors, international and non-governmental organizations, and United 
Nations support. In conclusion, countries that have adversarial 
relationships with USG are the most problematic to support and provide 
FHA and HA/DR.
    Mr. Palazzo. In 2009 the U.S. imported over 220 billion dollars in 
goods from China, over double the imports of any other western nation. 
Do you believe that this U.S. consumer behavior is actually fueling 
China's military buildup?
    Admiral Willard. It is true that in 2009, according to China's 
statistics, the U.S. imported $221.4 billion merchandise goods from 
China; this supersedes, by more than four times, the next highest level 
of Chinese exports to a Western nation (Germany, $49.9 billion). It is 
expected that some of the revenues that accrue to Chinese firms that 
sell goods to U.S. consumers comprise the firms' net income which is 
taxed. These taxes are then available to fund Chinese Governmental 
operations--including the People's Liberation Army (PLA). However, 
based on PACOM analysis, we have determined that only a fraction of the 
sales revenue (between 60% and 80%) accrue to Chinese firms (many 
inputs to Chinese production are manufactured in other countries). 
Moreover, some unknown fraction of sales revenue comprises net income 
or profits. (Let us hazard a guess of say 25%.) Finally, China taxes 
corporate profits at a 25% rate. Consequently, we would estimate that 
about $10 billion of the $221 billion would be collected as corporate 
profits taxes.
    We are ignoring here the taxes that are collected from Chinese 
citizens who helped produce the goods that the U.S. imported. But even 
if we assume that wages comprised 50% of the cost of goods sold, and 
assume a 25% tax rate, we would conclude that about $20 billion of the 
$221.4 billion would be collected in the form of income taxes. 
Therefore, a total of about $30 billion in tax revenue might be 
available to disburse for PLA operations.
    However, there is a flip side to the coin. What we know is that 
dollars, which are received via export sales, are often recycled by 
acquiring U.S. Treasury Securities. It is likely that much of the 
$221.4 billion in sales were used to purchase U.S. Treasury Securities, 
which, in turn, helped finance U.S. Government operations. Some of the 
funds from Treasury sales may have very well been used to support U.S. 
Department of Defense operations.
    Summary: It turns out then that it is likely that U.S. imports of 
Chinese goods serve to underwrite the cost of certain PLA operations. 
But it is equally likely that those same dollars find their way back 
into U.S. Governmental operations. It goes without saying that, if the 
first flow is halted, then so is the second.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
